<html>
<title> - IMPROVING THE FEDERAL BRIDGE PROGRAM: INCLUDING AN ASSESSMENT OF S. 3338 AND H.R. 3999</title>
<body><pre>[Senate Hearing 110-1263]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 110-1263

                      IMPROVING THE FEDERAL BRIDGE
                    PROGRAM: INCLUDING AN ASSESSMENT
                        OF S. 3338 AND H.R. 3999

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS
                      
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate


                                  ______
                                      
                       U.S. GOVERNMENT PUBLISHING OFFICE 


88-907 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

                               __________

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 10, 2008
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     7
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     9
Sanders, Hon. Bernie, U.S. Senator from the State of Vermont.....     9
Carper, Hon. Thomas R., U.S. Senator from the State of Deleware, 
  prepared statement.............................................   172
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   172

                               WITNESSES

Coleman, Hon. Norm, U.S. Senator from the State of Minnesota.....    10
Oberstar, Hon. James L., A Representative In Congress from the 
  State of Minnesota.............................................    13
Madison, Hon. Thomas J. Jr., Administrator, Federal Highway 
  Administration.................................................    18
    Prepared statement...........................................    21
    Responses to additional questions from:
        Senator Lautenberg.......................................    31
        Senator Cardin...........................................    33
        Senator Sanders..........................................    36
        Senator Inhofe...........................................    37
Siggerud, Katherine, Managing Director, Physical Infrastructure 
  Issues United States Government Accountability Office..........    41
    Prepared statement...........................................    43
    Response to an additional question from Senator Lautenberg...    67
    Responses to additional questions from Senator Cardin........    68
    Response to an additional question from Senator Sanders......    68
    Responses to additional questions from Senator Inhofe........    69
Herrmann, Andrew, P.E., F.Asce, Managing Partner, Hardesty And 
  Hanover, Llp...................................................    91
    Prepared statement...........................................    94
    Response to an additional question from Senator Lautenberg...   102
    Response to an additional question from Senator Cardin.......   102
    Responses to additional questions from Senator Sanders.......   103
    Response to an additional question from Senator Inhofe.......   104
John Krieger, Staff Attorney, Federal Tax And Budget Policy, 
  United States Public Interest Research Group...................   106
    Prepared statement...........................................   108
    Response to an additional question from Senator Cardin.......   145
    Responses to additional questions from Senator Sanders.......   145
Gary Ridley, Director, Oklahoma Department of Transportation.....   147
    Prepared statement...........................................   150
    Responses to additional questions from:
        Senator Lautenberg.......................................   160
        Senator Sanders..........................................   161
        Senator Inhofe...........................................   162

                          ADDITIONAL MATERIAL

Article, Star-Tribune, Clue on 35W bridge might have been missed.   174
Statements:
    Malcolm T Kerley, P.E., Chair, Highway Subcommittee on 
      Bridged and Structures American Association of State 
      Highway and Transportation Officials.......................   177
    Commonwealth of Pennsylvania Department of Transportation, 
      Office of the Secretary of Transportation..................   183
    Oklahoma Department of Transportation........................   187
    American Association of State Highway and Transportation 
      Officials..................................................   194

 
  IMPROVING THE FEDERAL BRIDGE PROGRAM: INCLUDING AN ASSESSMENT OF S. 
                           3338 AND H.R. 3999

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Building, the Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Cardin, Sanders, Klobuchar, Barrasso

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everyone. The Committee will 
come to order.
    During rush hour, just over a year ago on August 1st, the 
I-35 West Bridge in Minneapolis collapsed, sending dozens of 
cars into the Mississippi. This tragedy claimed the lives of 13 
people. It has also served as an urgent wake-up call that we 
cannot neglect our Nation's crumbling infrastructure.
    I just want to say, we are so fortunate that Senator 
Klobuchar is on this Committee. We would never have not gone 
into this topic as deeply as we did because of what happened. 
But having her on this Committee has been a tremendous asset. I 
just want the people of her State to know that.
    The National Transportation Safety Board has not yet issued 
the results of its investigation into the Minnesota bridge 
collapse. But we do know that additional resources are needed 
to repair and replace aging bridges and highways across our 
Nation. It shouldn't take a tragedy like the one in Minneapolis 
to remind us that the safety of our bridges, highways and other 
infrastructure can be a matter of life and death.
    Yet today we are facing a crisis with the Highway Trust 
Fund that we use to repair our roads and bridges, as well as 
invest in new infrastructure. But this one, this particular 
crisis we can prevent, if we can restore the $8 billion to the 
Highway Trust Fund and prevent cuts to highway spending 
nationwide. I have been trying to get that done, Senator Reid 
has been trying to get that done, Senator Murray has been 
trying to get that done, and I know we have strong bipartisan 
support. But we have several Republicans who have objected to 
making that fix. The Highway Trust Fund's balances have dropped 
quickly over the past couple of months. According to FHWA, 
revenues have dropped from $4.2 billion at the end of July to 
less than $1.4 billion at the beginning of September. This drop 
is due to the fact that Americans are driving less, and the 
funds generated by the gas tax have been much lower than 
previously anticipated.
    This leaves us with a precarious situation where the fund 
is now unable, where the FHWA is now unable to fully reimburse 
States for critical highway construction projects. FHWA is 
going to slow down the repayment of States if we can't come up 
with the funds to restore the shortfall. This means thousands 
of jobs are lost and important transportation improvements are 
stalled or canceled. If we don't fix the trust fund shortfall 
now, the highway account is expected to experience as much as a 
$3.1 billion shortfall in 2009, which would result in an 
approximately 30 percent reduction in funds.
    According to my California Department of Transit, if no 
action is taken to avert the shortfall, my State of California 
would experience a potential revenue reduction of $930 million. 
This means a loss of 32,315 jobs in my State. And California is 
certainly not alone. Every one of our States will suffer.
    That is why today, before we get to this hearing, I call 
upon all my colleagues, my Republican colleagues, who have 
objected to this, to focus on the communities that will lose 
jobs and the families that will be hurt if we don't fix this 
Highway Trust Fund. Today our specific focus is the State of 
repair of our bridges. Half of all our bridges in this Country 
were built before 1964. The average age of a bridge in the 
National Bridge Inventory is 43 years old.
    Of approximately 600,000 bridges nationwide, 26 percent are 
considered deficient. This means we need to make significant 
investments just to maintain our bridges at safe functioning 
levels, followed by even larger investments over the next 20 to 
30 years to completely replace aging bridges.
    Since its creation, the Highway Bridge Program has provided 
approximately $77 billion for bridge repair and replacement. 
The most recent highway reauthorization bill, SAFETEA-LU, 
included a total of $21.6 billion in Federal funding for the 
Highway Bridge Program with an average of $4.3 billion in 
Federal funding provided per year. Unfortunately, this amount 
of funding is not enough to maintain our bridges in a State of 
good repair. According to DOT's conditions and performance 
report, the average annual cost to eliminate the repair backlog 
and fix other problems that are expected to develop between now 
and 2024 will be $12.4 billion annually from all levels of 
government.
    Senator Klobuchar and Chairman Oberstar have worked 
together to address problems with our Nation's bridges by 
introducing legislation entitled The National Highway Bridge 
Reconstruction and Inspection Act of 2008. The House version of 
this legislation, H.R. 3999, was approved by an overwhelming 
bipartisan vote of 357 to 55 in the House of Representatives on 
July 24th. This legislation makes changes to the requirements 
set forth in the Highway Bridge Program, while authorizing a 
one-time additional $1 billion for bridge repair and 
replacement.
    I have to point out to you, Congressman Oberstar, that that 
$1 billion is an interesting number. Because a few days ago, 
Vice President Cheney and President Bush announced they are 
sending $1 billion to Georgia. That is not Atlanta, Georgia. 
That is the country of Georgia. And that is the cost of the war 
they just fought.
    The reason I bring this up is it seems that there is no 
hesitation when there is a need abroad. Now, the fact is that 
war in Georgia cost $1 billion. What about our friends in 
Europe pitching in? But no, we are sending $1 billion. So 
frankly, I think the fact that your bill just picked that 
billion dollars for bridge repair is something America ought to 
understand. We need to start spending money here.
    One key provision in the legislation is the requirement for 
the DOT to develop a national risk-based priority system for 
the repair, rehabilitation or replacement of each structurally 
deficient or functionally obsolete bridge. This Committee is 
releasing a GAO report today on the Highway Bridge Program 
entitled Clearer Goals and Performance Measures Needed for A 
More Focused and Sustainable Program. In this report, GAO found 
that the current Highway Bridge Program does not have clearly 
defined goals that encourages States to reduce their overall 
number of deficient bridges.
    By developing national risk-based criteria and requiring 
each State to develop their own performance plans based on the 
risk-based priority system, the Federal Government should be 
able to focus investment on those bridges that are in most need 
of repair. There are States like California who have specific 
needs like seismic retrofitting, which should be considered a 
priority in a risk-based system. We need to invest more in our 
Nation's bridges, but we also need to insure that Federal funds 
dedicated to bridge repair and replacement are well spent and 
used as intended.
    We all know we have great challenges before us. But at the 
end of the day, I believe we can come together to set these 
priorities. If we are going to keep our people safe, our 
economy strong and healthy, we need to make a serious 
investment in our infrastructure. And it begins with safety.
    Now, here is the way we do our hearings. I just want to let 
everyone know. I would be calling on my Ranking Member, my 
friend, Senator Inhofe. Then we would go next to Senator 
Klobuchar, then we go next to a Republican and next to Bernie, 
then we would open it up.
    Senator.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    I want to welcome our witnesses, and I will single out 
Congressman Oberstar. We go all the way back to when we served 
together on that committee in the House in 1987. At that time, 
if you remember, you were the chairman of the Aviation 
Subcommittee, I was, I think, the only commercial pilot on the 
committee. We really got busy and solved a lot of things and 
that has endured all the way to this day. I have to say to you, 
Madam Chairman, I have had extensive conversations just this 
week with Congressman Oberstar, because we both share the 
concern, the crisis in the Highway Trust Fund. It is going to 
have to be resolved.
    Also, welcome my colleague, Senator Coleman, who has been 
very busy the last week, and who worked tirelessly to secure 
emergency funding after the collapse of the I-35 bridge last 
year. I was honored to help him and his State in time of need. 
He is one of the primary requestors, along with the Chairman 
and me, of the GAO study that will be released today.
    Also I want to extent my warm welcome to Gary Ridley. He 
will be on the third panel. Gary Ridley, hold your hand up and 
make sure they know who you are. He is unquestionably the best 
director anywhere in America. I recall when a Democrat Governor 
was elected, Madam Chairman, I called and said, I only have one 
request. You have the best director there, I don't know whether 
he is a Democrat or Republican, but he is the best, and of 
course he is still on the job. We work all kinds of hours, I 
have called him in the middle of the night, he has called me in 
the middle of the night. And he is very much concerned about 
this. We want to really bring this out. Even though this is a 
bridge hearing, I say to my good friend, Gary Ridley, we want 
to talk about the crisis that we are faced with right now and 
what our options are.
    Finally, I want to welcome our new FHWA Administrator, 
Thomas Madison. I talked to him before this meeting. He may be 
having second thoughts right now. But this is his initial 
meeting and we are glad to have him here.
    I am a little concerned. This hearing is a repeat of a 
hearing we had in September of last year. We have been having 
about one highway hearing a month as we gear up for 
reauthorization. This pace doesn't allow us the opportunity to 
retread the same territory. In fact, most of the organizations 
represented at the last bridge hearing are here again today. 
This hearing is designed to look at both the bridge program as 
a whole and Congressman Oberstar's bridge bill, which passed in 
the House and was introduced in the Senate by Senator 
Klobuchar.
    Since this is otherwise the same hearing we had last year, 
I will focus my comments on this proposed legislation. I 
believe this is not the right bill at the right time. It adds, 
in my opinion, and I have talked to a lot of the people in our 
State of Oklahoma, more red tape, to a portion of the highway 
program that already has many bureaucratic hurdles that States 
don't like. In fact, some States transfer money, since I 
believe this happened in the State of Oklahoma, from that 
account, the bridge program, to other, more flexible programs 
in order to have more flexibility in fixing their bridges.
    We are a year from the expiration of SAFETEA. Any major 
policy changes should be handled in the context of 
reauthorization. Otherwise, they distract from the overall goal 
of getting a comprehensive bill done on time. I agree the 
current bridge program needs revisioned. But this bill moves, I 
believe, in the wrong direction.
    I am concerned that in the wake of the Minnesota tragedy 
and series of high profile news stories about the poor 
condition of the Nation's bridges that we are 
disproportionately focusing on a single aspect of the system. 
It is certainly true that our bridges are in terrible 
disrepair. As I have noted before, my State of Oklahoma, I will 
wait until Director Ridley is testifying and ask him this 
question, I think today we have the largest number of 
structurally deficient and functionally obsolete bridges in the 
entire Country. We, I think, are now dead last in the condition 
of our bridges. We used to be tied with two other States. So we 
are very much concerned about this.
    Let me emphasize again that I agree the existing bridge 
program needs work to make it more usable for States, but with 
all due respect to my colleagues, this bill doesn't do that and 
it should be done in the context of a larger reauthorization 
bill. I said the same thing, Madam Chairman, to some of my 
Republicans yesterday when I addressed the conference. I said, 
talking about the Highway Fund crisis that we have, they wanted 
to get other things accomplished by adding amendments to this. 
I said, that is fine, we need improvement. But in the wake of 
the 2009 reauthorization bill, that is where we ought to be 
addressing these new problems that exist.
    In closing, I want to comment on the precarious situation 
as far as the Highway Trust Fund. Chairman Boxer and I have 
been working for several months to get a fix on the Senate 
floor. Despite our best efforts, we have officially bumped up 
against a hard deadline, because I understand that as early as 
this week, the Secretary will begin not fully reimbursing 
States. On Monday, the Oklahoma Transportation Commissioner has 
decided to delay $80 million of ready to go projects, they have 
already been set out, and people hired, ready, picks and 
shovels, ready to go to work, and perhaps another $40 million 
if Congress does not act this week on the shortfall. So it has 
to be done.
    I suspect other States have the same problems. I know that 
in talking to Congressman Oberstar about this, he shares my 
concern over this crisis that we are faced with. Inaction not 
only means critical projects not getting done, but construction 
workers are going to be laid off. We don't want this to happen.
    So those of us who have been around a while remember when 
we used to always have a surplus. You remember that, 
Congressman Oberstar, we had surpluses in the Highway Trust 
Fund up until the time, long after I left and came over to the 
Senate. I remember objecting very much, back in 1998, when they 
took $8 billion out of the Highway Trust Fund and put it into 
the general fund in the 1998 Balanced Budget Act, I believe it 
was. I said at that time, this is a mistake. It is less than 
honest, because people, I think probably the most popular tax 
we have is the tax you pay at the pump, because people know and 
believe it is going to go to improve our road structure, our 
bridges and all these things. But it is totally dishonest to 
take money out of that, and those people are finding out now 
that that money is being used for other purposes.
    So I think there is a fix there. I wholeheartedly endorse 
it. I have talked to my colleagues about it, and I think that 
we need to undo the damage that was done back in 1998. We have 
to at least temporarily fix, the crisis would be behind us, the 
immediate crisis. I am hoping we will be able to do that, Madam 
Chairman.
    [The prepared statement of Senator Inhofe follows:]
            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma
    Thank you Madame Chairman. I want to welcome our distinguished 
witnesses. I enjoy working with my good friend Jim Oberstar, who is 
here with us today, and I look forward to negotiating out the finer 
points of the next highway bill with him. When I was first elected to 
Congress back in 1987, Jim was my Chairman of the Aviation Subcommittee 
on what was then the Committee on Public Works and Transportation and 
as an aviator, I was a very active member of the subcommittee and got 
to know Jim pretty well. We may have even taken a few fact finding 
trips together.
    I also would like to welcome my colleague Senator Coleman, who 
worked tirelessly to secure emergency funding for the collapsed I-35 
bridge last year. I was honored to help him in his states time of need. 
He is also one of the primary requesters, along with the Chairman and 
me, of a GAO study being released today on how to improve the Highway 
Bridge program
    Also, I want to extend a warm welcome to Gary Ridley, whom I 
believe is the best highway director in the country. I have had many a 
phone call with Gary at odd hours of the day and night and I can 
confirm that he is always available and on top of things. In fact, he 
and I have been in close contact since it became clear that the Highway 
Trust Fund could be broke as early as this week. This morning, he is 
representing the American Association of State Highway and 
Transportation Officials. His testimony on how a stand alone Bridge 
bill will negatively influence my State's capital bridge expenditures 
while ignoring the vast needs of the rest of highway system is 
consistent with comments I have received from other States.
    Finally, welcome to our new FHWA Administrator Thomas Madison. I 
regret that your first appearance before our Committee as Administrator 
has to be under crisis circumstances, but I understand that you are 
drinking as fast as you can from the fire hose and I am confident that 
together we will find a satisfactory solution to the HTF crisis.
    I'm a little concerned this hearing is a repeat of a hearing we had 
September of last year. We have been having about one highway hearing a 
month as we gear up for reauthorization. This pace does not allow us 
the opportunity to retread the same territory. In fact most of the 
organizations represented at the last bridge hearing are here again 
today. This hearing is designed to look at both the bridge program as a 
whole and Congressman Oberstar's bridge bill, which passed the House 
and introduced in the Senate by Senator Klobuchar. Since this is 
otherwise the same hearing we had last year, I will focus my comments 
on this proposed legislation.
    I believe this is the wrong bill at the wrong time. It adds more 
red tape to a portion of the highway program that already has so many 
bureaucratic hurdles that states do not like to use this program to 
repair their bridges. In fact, some states transfer money from the 
bridge program to other more flexible programs in order to more 
effectively fix their bridges.
    We are a year from the expiration of SAFETEA. Any major policy 
changes should be handled in the context of reauthorization. Otherwise 
they distract us from the overall goal of getting a comprehensive bill 
done on time. I agree the current bridge program needs revision, but 
this bill moves in exactly the wrong direction. It further handcuffs 
the states ability to address its greatest bridge priorities.
    I'm concerned that in the wake of the Minnesota tragedy and a 
series of high profile news stories about the poor condition of the 
nation's bridges, we are disproportionately focusing on a single aspect 
of the system. It is certainly true our bridges are in terrible 
disrepair. As I have noted before, my State of Oklahoma has the 
distinction of having the greatest number of structurally deficient and 
functionally obsolete bridges in the country. I agree we must rework 
the bridge program, but we cannot let the needs of bridges overshadow 
the overwhelming needs of the rest of our highway system.
    Let me emphasize once again that I agree the existing bridge 
program needs work to make it more useable for States, but with all due 
respect to my Minnesota colleagues, this bill does not do that and it 
should be done in the context of the larger reauthorization bill. It 
is, in my opinion, counterproductive to try and fix our crumbling 
infrastructure through piecemeal efforts. We need a comprehensive 
reform which should be done through a reauthorization bill next year.
    In closing, I want to comment on the precarious situation we find 
ourselves in with respect to the solvency of the HTF. Chairman Boxer 
and I have been working for several months to get a fix to the Senate 
floor. Despite our best efforts, we have officially bumped up against a 
hard deadline because I understand that as early as this week the 
Secretary will begin not fully reimbursing States. On Monday, the 
Oklahoma Transportation Commissioners decided to delay $80 million of 
ready to go projects for at least a month with a possible additional 
$40 million if Congress does not act this week to shore up the 
shortfall. I suspect that other States have had to make that difficult 
decision too. Inaction not only means critical projects are not getting 
done, but construction workers are going to be laid off. We must act 
this week and I am working to convince my colleagues of the urgency of 
the situation and would encourage all those listening who understand 
the importance of a robust transportation infrastructure program to 
contact their Senators and urge them to support H.R. 6532, which will 
restore $8 billion taken from the HTF in 1998. This is not a long term 
fix but it will give us time to come up with a permanent funding fix.

    Senator Boxer. Thank you so much.
    Senator Inhofe. Were you going to go through with opening 
statements first?
    Senator Boxer. Yes, I am.
    Senator Inhofe. OK, that is fine.
    Senator Boxer. I wanted to point out, since my dear friend, 
Senator Inhofe, said that this was a repeat, this is not a 
repeat of another hearing. We are considering legislation to 
address the problem of these bridges. And that legislation is 
S. 338 by Senator Klobuchar and H.R. 3999 by Congressman 
Oberstar. We are absolutely looking at specific legislation.
    Now, it may not be that my friend wants to deal with this 
this year, but others of us do. So we will find out today where 
we stand on that, and we are going to go to Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair, for 
holding this important hearing. I want to welcome my two 
colleagues, Senator Coleman and then also Congressman Oberstar. 
You should know, Madam Chair, that Congressman Oberstar's dad 
and my grandpa were both miners in northern Minnesota, and when 
you think of Congressman Oberstar's strong advocacy on behalf 
of transportation, when you are up north, strong means 
boisterous, loud and with a lot of gritted teeth. And he gets 
things done.
    I also want to thank you, Chairwoman, for the support you 
and the Committee have given me in the State of Minnesota, 
throughout our bridge collapse, and Senator Inhofe, of the 35W 
collapse. This led to the process of us bringing the companion 
bill to the House bill S. 3338 before you today.
    Our bridge, as you can see, and everyone remembers this 
photo, fell down on August 1st, 2007. As I said that day, a 
bridge just shouldn't fall down in the middle of America, not 
an eight-lane highway and not a bridge that is six blocks from 
my house, not a bridge that I drive my 13 year old daughter 
over every single day.
    I am pleased to share with the Committee that great 
progress has been made in rebuilding the 35W bridge. In fact, a 
new bridge already spans the river. It is expected to open as 
early as next week, well ahead of schedule, if you can imagine 
getting this done in this time, because of the help of Congress 
and the leadership we had here, we are going to see cars and 
trucks once again crossing the Mississippi River.
    We must get to the bottom of why this bridge fell down. 
Evidence is accumulating that the bridge's condition has been 
deteriorating for years, that it was a subject of growing 
concern with the Minnesota Department of Transportation. This 
wasn't a bridge over troubled waters, this was a troubled 
bridge over water. I will say, as a former prosecutor, I know 
we must wait until the facts in evidence are in before we reach 
a verdict.
    Mark Rosenker, the Chair of the NTSB, said the 
investigation is nearing completion and that a final report 
will be ready for public release within a couple of months. He 
has also recently said that photographs of the gusset plates 
which were one half inch thick and warped were stressed by the 
weight of the bridge and should have been a key indicator to 
the dangerous State of the I-35W bridge.
    We look forward to this report, giving us a definitive 
answer of why it collapsed, but also how inspections could have 
been improved, which gets to the bill we are talking about 
today. I would say that the bridge collapse in Minnesota, if 
there is any silver lining, it has shown that America needs to 
come to grips with broader questions about our deteriorating 
infrastructure. The Minnesota bridge disaster shocked Americans 
into a realization of how important it is to invest in safe, 
sound infrastructure.
    I would also add, just to bring I home, that because we 
inspected all of our bridges in Minnesota after this happened, 
we learned that another bridge of similar design in St. Cloud, 
Minnesota, in the heart of a major regional city, is now closed 
with plans to replace it, with the same problems with the 
gusset plates. According to the Federal Highway Administration, 
more than 25 percent of the Nation's 600,000 bridges are either 
structural deficient or functionally obsolete. There is 
virtually no way to drive in and out of our State or any other 
State in this Country without driving over a structurally 
deficient bridge at some point. When the average age of a 
bridge in this Country is 43 years and 25 percent of all 
American bridges are in need of serious repair, it is time to 
act.
    I think the GAO study is going to be interesting today. I 
understand it is going to talk about the funding criteria that 
should be looked at, the transferring of the bridge program 
funds, the disincentives that exist for States to reduce their 
inventories, and the long-term trend of more and more bridges 
in need of repair.
    The two things that I believe we need to do is first of 
all, as you brought up, Madam Chair, is to adequately fund the 
Highway Fund, the trust fund. I know we are working on that in 
Congress. I think it is unfortunate that Senator Gregg and 
others have been holding this up. We must get this done.
    The second thing, Senator Durbin and I and Senator Coleman 
is a co-sponsor, have introduced the companion bill to 
Congressman Oberstar's bill. This legislation would require the 
Federal Highway Administration and State transportation 
departments to develop plans to begin repairing and replacing 
bridges that pose the greatest risk to the public. It would 
require the Federal Highway Administration to develop a new 
bridge inspection standard and procedures that would use the 
best technology available.
    Because some States have been transferring their bridge 
repair funds to highway maintenance programs for things like 
wildflower planting or road construction, this bill would also 
ensure that Federal bridge funds can only be transferred when a 
State no longer has bridges on the national highway system that 
are eligible for replacement.
    Finally, it would authorize an additional $1 billion for 
the reconstruction of structurally deficient bridges that are 
part of the national highway system. This is just a start, but 
it is a good start. If the President will sign it, the Senate 
passes it, I am hopeful that it will get us headed in the right 
direction for the repair of our bridges. We have seen this, it 
was six blocks from my house. And something has been wrong, not 
only with our under-funding of our highway system, but also in 
the way these inspections and the repair of these bridges have 
been handled on a national basis.
    So I thank my two colleagues for being here and I thank 
Chairman Oberstar for his leadership in the House. Thank you 
very much.
    Senator Boxer. Thank you.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    Just 1 week ago today, I was in Minneapolis and had a 
chance to see the remarkable progress that has been made. I 
actually had a chance to see both of the Senators from 
Minnesota and I want to thank both of you for the incredible 
hospitality that you showed me and many of my colleagues just 
this past week.
    Madam Chairman, I want to thank you for holding these 
hearings today on improving the Federal bridge program. In 
Wyoming we generally have short, narrow bridges, and like many 
of our neighbors in the mountain west, we receive about $10 
million a year. It is not a big portion of the Highway Bridge 
Program formula.
    I do know that this legislation has good intentions. I know 
it doesn't necessarily work for States like Wyoming, because it 
takes away some of our flexibility. For the last 10 years, 
Wyoming has not transferred one dollar out of the bridge 
program into another program. And I understand that some States 
have managed to mis-use some of the transferability of bridge 
funds. Wyoming clearly is not in that category. I am just 
concerned that this further restricts the transfers, may take 
away some of the flexibility that is needed by the other 
States.
    I look forward to the hearings and look forward to 
discussing this. Thank you very much, Madam Chairman.
    Senator Boxer. Thank you.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you very much, Madam Chair, for 
holding this important hearing. We thank our guest panelists 
for being here.
    Let me begin by just reiterating the point that you made, 
Madam Chair. I think we all recognize, and I certainly can tell 
you that it is true in Vermont, that we have a major bridge 
crisis in the United States of America. But anyone who thinks 
that it is just bridges would be terribly wrong. We have in my 
State, and I suspect all over this Country, our roads are 
crumbling, potholes all over the place. And I speak as a former 
mayor in saying what everybody knows to be true, that if you 
don't do good maintenance, you are just throwing money away, 
because then you have to rebuild the bed and everything else. 
If you want to save money, you do maintenance on a regular 
basis. So we have to work on our roads.
    Our rail system is far behind the rest of the world, 
Europe, Japan, even China. We need to invest billions in our 
rails. Our water plants, I don't know about California, but in 
Vermont, we have major problems at water plants, clean water, 
very, very expensive proposition. Wastewater plants are a major 
problem.
    So the question is, how, in the United States of America, 
the wealthiest nation in the history of the world, are we 
sitting around while our infrastructure is collapsing in front 
of us? And I think, Madam Chair, it speaks to national 
priorities. Let me be very frank, let me be a little bit 
partisan. Just a little bit. There are some people who think it 
is more important that we give a trillion dollars in tax breaks 
to the wealthiest three-tenths of 1 percent of the population 
by repealing the eState tax. Then when we say, oh, my goodness, 
we need to rebuild our infrastructure, and by the way, make 
millions of good-paying jobs, oh, that is government spending, 
that is big government, we can't do that.
    Well, I respectfully disagree. Ten billion dollars a month 
in Iraq, huge tax breaks for people who don't need it, and we 
are not rebuilding our infrastructure. And you know what, it 
ain't going to get any better. Senator Inhofe, if we don't put 
money in it tomorrow, it is not going to get better next week. 
It will only get worse, we will only have to spend more money.
    So I certainly believe, with our panelists, that we have to 
invest heavily in our bridges in Vermont. Many of our bridges 
are old. Just in the last week, they have shut down several 
bridges. It impacts our economy. People on television say hey, 
how do I get home? Bridge is closed, small bridges.
    So we have to rebuild our bridges, and we have to take a 
hard look at our entire infrastructure. As you know, the 
American Society of Civil Engineers estimated it was $1.6 
trillion that we needed to invest. Let's do it. Let's show the 
rest of the world that we are in fact a first class nation.
    So we have a lot of work, and I applaud you, Madam Chair 
and Mr. Inhofe, for bringing us together to move forward. Thank 
you.
    Senator Boxer. Thank you so much.
    And I want to now call on Senator Coleman, then Congressman 
Oberstar.

                STATEMENT OF HON. NORM COLEMAN, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Coleman. Thank you, Madam Chair. Thank you for the 
opportunity to testify.
    This month marks a turning point of sorts, less than 14 
months after the terrible collapse of the I-35W bridge. On 
Monday, we will open the new bridge. That is a shining moment, 
a positive moment. But the collapse certainly has highlighted 
the need for our Nation to be more vigilant and proactive in 
maintaining our infrastructure.
    I do want to thank my colleagues, Senator Klobuchar and 
Senator Oberstar, for their commitment. Senator Oberstar 
certainly is longstanding on these issues.
    It is imperative we need to do more. It is why Senator 
Levin and I, together with the Chairman and Ranking Member of 
this Committee, requested the GAO report that we are looking at 
today. The report in many ways confirms what we already knew, 
that the Federal Highway Bridge Program lacks focus and 
performance measures and is unsustainable financially as 
currently constructed. We have a lot of reforming to do and our 
lives and our economy depend on it.
    Going forward, I would like to suggest we need reform in 
five areas, which I will touch upon briefly. First, we need a 
better way to measure the condition of bridges. In the 
aftermath of the I-35W collapse, people had a strong emotional 
reaction to the fact that the bridge had been rated 
structurally efficient. While the GAO has pointed out that the 
term ``structurally deficient'' doesn't necessarily mean 
unsafe, the fact that 25 percent of the U.S. bridges are 
structurally deficient or functionally obsolete, I am sure that 
makes folks wonder, is my bridge safe? It is hard to know what 
to fix first without a good measuring stick for bridge quality.
    Part of what we need to do in answering that question is to 
take a critical look at the bridge inspection and bridge rating 
systems, which the Department of Transportation's Inspector 
General is working on now. We are looking forward to the 
results of that review.
    No. 2, we need a better funding source for infrastructure. 
The current crisis in the Highway Trust Fund is not an anomaly. 
It is the leading edge of a long-term problem. With high gas 
prices a permanent reality, people will drive less and they 
will utilize vehicles that use less gasoline. That means less 
funding going into the trust fund, resulting in less money for 
transportation and infrastructure.
    I think one of the strengths of the Highway Fund has been 
the user fee approach to revenue. If you drive, you pay for the 
roads you use. But as technology changes, we need to find ways 
to get users to pay for the transportation resources they use. 
This report doesn't prescribe a solution, but we know from last 
week's announcement by Secretary Peters that folks simply need 
to put their heads together and shore up the Highway Trust Fund 
over the long term.
    No. 3, we need a better way to prioritize money for 
infrastructure work. Our job is not just to authorize and 
appropriate money, but to set priorities and goals. Under the 
Highway Bridge Program, States get money based on the number of 
deficient bridges but have no obligation to use that money on 
repairing these bridges. Any bridge, indeed, just about 
anything a car drives on, could receive those funds. And next 
year, when funds are being doled out, a State would actually 
get more money if they had more deficient bridges than the 
previous year. So there is no incentive to use the money on 
troubled bridges. It is imperative that we take a step back and 
develop targeted goals for the rehabilitation of our bridges.
    The GAO report suggests the expanded use of bridge 
management systems by States could be useful for prioritizing 
projects, and hopefully we can explore this further as we 
consider changes to this important infrastructure program. The 
legislation Chairman Oberstar has championed, which Senator 
Klobuchar and I have introduced in the Senate, also lays out 
some ideas worth considering. For instance, this legislation 
requires that plans be developed to ensure that bridges with 
the highest risk are replaced before those with the lower risk 
factors.
    No. 4, we need greater accountability. States have latitude 
in spending the dollars provided through the program. None of 
us want to micro-manage our States. But without sufficient 
accountability there is neither a carrot nor a stick for States 
to improve the conditions of their bridges.
    Indeed, the program as a whole needs to be more accountable 
to the American taxpayer. The GAO finds the program to be 
lacking a system to measure whether it is truly making a 
difference. While I am glad that the numbers of deficient 
bridges have decreased by 12 percent since 1998, I am troubled 
that we can't measure whether the Highway Bridge Program has 
actually contributed to that decline.
    Finally, No. 5, we need to engage the American people in 
this challenge. This need is great, but if we just stick the 
taxpayer with a huge bill, our efforts at infrastructure reform 
will fail. Voters need to understand the scope and importance 
of the problem as we fashion solutions.
    We should welcome the work being done by folks like Mayor 
Bloomberg and Governor Schwarzenegger and Ed Rendell, an 
Independent, a Republican and a Democrat, because we need ideas 
outside of Washington help us get through this crisis we are 
in, not to mention fiscal partners in this solution.
    Madam Chairman, we all know change is a difficult thing. 
But the sooner and more broadly we attack our infrastructure 
problem, the sooner we will reach the safe, more economically 
supportive system we all seek.
    When I was a mayor, I worked with community partners to 
plant thousands of trees along the Mississippi River. I learned 
a lesson that the best time to plant a tree is 10 years ago, 
and the second best time is right now. The Senate looks to this 
Committee for leadership and urges you to take bold steps that 
will inspire the Senate, the House, the Administration and the 
American people to follow. The solution isn't really throwing 
money we don't have at the problem or raising taxes. It starts 
with using the money we have more efficiently. And as Congress 
begins work on a new highway bill, this report should be our 
blueprint going forward.
    I look forward to working closely with you to implement the 
recommendations outlined in this report. Thank you.
    Senator Boxer. Thank you, Senator.
    Last but certainly not least, the partner that developed 
this very important piece of legislation that Senator Klobuchar 
has introduced here, Congressman Oberstar. We all have such 
great respect for your many years of devotion to this topic, 
and we welcome you here today.

   STATEMENT OF HON. JAMES L. OBERSTAR, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Oberstar. Thank you very much. It is always a great 
privilege to be in the other body, as we affectionately call 
the Senate. I have so many friends here, Bernie Sanders served 
with me in the House and you, Madam Chair, Senator Inhofe, a 
friend of long standing. I don't have old friends any more, 
they are friends of long standing.
    [Laughter.]
    Mr. Oberstar. Senator Barrasso, I haven't met you 
previously, but it is good to see you here from the State of 
Wyoming. And Senator Coleman, who was a delegate for me when I 
was seeking the Senate seat, way back in ancient history. 
Senator Klobuchar, whose roots are in the iron ore mining 
company of northern Minnesota, and has been a friend, a dear 
friend for a very long time.
    Bernie Sanders talked about maintenance. I would quote San 
Francisco's longshoreman philosopher, Eric Hoffer, who wrote 
and said many times, ``You can tell a quality of a society by 
the quality of its maintenance. Show me a city whose water 
systems are failing, whose sewer systems are failing, whose 
highways are in disrepair and I will show you a society that 
doesn't function.''
    That is where we are. We are in a State of disrepair, as 
documented by the National Commission on Transportation Policy 
and Revenue Study. That has been documented by the National 
Academy of Sciences, by the American Council of Engineering.
    But let me do three things here. One, put this in a little 
historical context, this legislation, discuss a few of the 
items of the legislation, I won't repeat what has already been 
said about the bill, then respond to a few concerns raised. The 
subcommittee met pursuant to call at 10:05 a.m. in room 2167, 
Rayburn, on December 1, 1987 with me presiding. Subcommittee on 
Investigations and Oversight began 2 days of hearings on the 
status of the National Bridge Inspection Program on the 20th 
anniversary of the Silver Bridge collapse across the Ohio 
River.
    We established the National Bridge Inspection Program in 
1968 in Congress. It had been poorly managed, poorly funded, 
very little attended by both the Federal Highway Administration 
and by the respective State departments of transportation. Then 
came the Myannis Bridge collapse, then came the Silver Bridge 
collapse. And on the 20th anniversary of that tragedy, in 1967, 
in December 1987, I conducted this hearing with Bill Clinger, 
the Ranking Member of the Committee, whom you will remember, 
and Congressman Molinari from New York also in attendance on 
the Republican side.
    More than the cost of rehabilitating a bridge is involved. 
If you take away a bridge span, you affect miles of highways in 
the many communities that feed into and depend upon that 
bridge. That's what happened on August 1 of last year. I said 
then there are an estimated 376,000 bridges in the National 
Bridge Program, there are now 556,000 bridges in the national 
highway system. Then they carried 85 percent of the highway 
traffic of America. They still carry 85 percent of the highway 
traffic of America.
    Seventy-six thousand of those bridges in 1987 were 
described as structurally deficient or functionally obsolete. 
Today, it is 156,000. Today, that is 76,000 that are 
structurally deficient alone. We need to know there are 
elements of bridge design of particular concern to inspectors, 
bridges without redundant members. I-35W bridge, 740 bridges 
like that were built in the mid-1960's across America, with the 
same failure to establish and design into the bridge redundant 
features. We ought to be sure that bridge inspectors are 
sensitive to the importance, are aware of and are looking for 
fracture-critical members. A fracture-critical item collapsed 
in the I-35W bridge. This is what we highlighted in 1987.
    We discussed flooding and the scouring from bridge piers 
and a host of things. But the principal witness, a professor of 
bridge engineering, Gerald Donaldson, highway safety director 
for the Center for Auto Safety, said, ``It is too much to hope 
that in say, the next 5 years, the overwhelming majority of 
States will be using sophisticated technology for bridge 
inspection.'' There are dozens of other references to that. Dr. 
Donaldson went on to say that bridge inspection is in the stone 
age.
    Well, it is still there. It is not too early, it is not 
anticipatory, it does not preclude our action next year in 
writing the Surface Transportation legislation follow-on to 
what I think will be a transformational piece of legislation in 
the history of surface transportation in America. It is not too 
early to start now. In fact, it is too late. But maybe just in 
time. I proposed these principles last year, after the bridge 
collapsed, and said, there are four concepts that we need to 
address, then held hearings on those concepts. Not on a bill, 
but on the concepts. And on the idea of a separate account in 
the Highway Trust Fund for structurally deficient bridges to be 
funded by a five cent increase in the user fee.
    Well, I think if we had acted on it in the following week, 
if the Congress had stayed in session 1 week longer, that bill 
would be law, the five cents would be in, we would be dealing 
with these bridges now. But to paraphrase Benjamin Banneker, 
tragedy is a terrible thing to waste. That tragedy, in fact, 
was wasted, at least to that extent.
    But the House spoke on the bill, we now have 72,000 
structurally deficient bridges, 79,000 functionally obsolete. 
We need a better process of identifying failures in bridges 
before they collapse. We need better training for bridge 
inspectors at the Federal and State level. We need more 
inspectors. We need an inventory of the structurally deficient 
bridges, and we need to hone that list down to what likely will 
be 2,600 or so of the most critical bridges that need to be 
fixed first and to have that list vetted by the National 
Academy of Sciences, as provided in this bill, then establish 
the funding mechanism for them.
    So there is a multi-step process. The first step is to 
raise the standards by which we design and build bridges, raise 
the quality of training of bridge inspectors, increase the 
number of bridge inspectors at the Federal and State level, and 
then reinspect those structurally deficient bridges according 
to the higher standards, establish a national structurally 
deficient bridge inventory, the most critical bridges, have it 
vetted by the National Academy of Sciences, establish a 
separate bridge repair account. And then make it earmark-proof. 
And the mechanism that I propose in this legislation that the 
House has passed is that there will be no deviation from that 
list by either the executive branch at the Federal level or the 
State level, or the legislative branch at the Federal or State 
level. And if there is a deviation, if someone tries to 
earmark, say, this bridge should have priority over the other 
one and do it in an appropriation bill, the Secretary of the 
Treasury is directed to withhold all the funds for all bridge 
repairs in the Country. Now, that is as foolproof as you can 
get, it takes it out of the hands, and deals with these 
critical structures.
    Why a bridge and not a stretch of roadway? If a stretch of 
roadway fails, you don't fall into a river. You don't fall onto 
a train track or some other conveyance underneath it. These are 
vital, critical members of our surface transportation system.
    So if we pass this legislation, get it moving today, we 
will have this information in hand when we move to the next 
authorization level next year. And believe me, in our 
committee, we are going to move in January and have something 
ready before the next Administration, whoever it is, can screw 
it up. Because I don't trust them. I have learned, in 20 years, 
you can't trust the executive branch, in fact, you can't trust 
yourselves even to get things done in time that we need to do. 
But this time we are going to do it. We have the opportunity. 
The European community is doing it.
    Senator Boxer. Congressman, if you could wrap it up in a 
minute.
    Mr. Oberstar. I am doing it. This is a 20 year, $1.3 
trillion investment plan of the European economic community. 
What is wrong with us? We are not a Third World country. Where 
is our $1.3 trillion for highways and transit and inter-city 
high speed passenger rail and a 2,000 mile canal across Europe 
to link the North Atlantic and the Black Sea?
    That is the kind of vision that we need in America, not 
sitting here rubbing our worry beads. The people will support 
us if we lead.
    Thank you.
    Senator Boxer. Well, tell us what you really think.
    [Laughter.]
    Senator Boxer. I want to make a point here. Do you know 
that it is Chairman Oberstar's birthday today? And we all say 
happy birthday.
    [Applause.]
    Senator Boxer. That was a happy birthday speech.
    I also want to say, moving things through the Senate, oh, 
and a birthday kiss. Which you deserve.
    And I don't ever know where all of my colleagues are coming 
from, and this is the Senate, it is a little bit different. But 
it is my intention, and I have shared this with Senator 
Klobuchar, to work hard on both sides of the aisle and try to 
get support for the Oberstar-Klobuchar effort here. And it is 
my intention to try and get this bill out as soon as possible.
    Because I personally agree with you, we are having some 
very fruitful talks between Republicans and Democrats on the 
Committee on the larger bill. I am excited, we have come up 
with principles. I am convinced we will have a very good bill.
    But we can get started on this, because I am so glad you 
made the point, when a bridge collapses, it is catastrophic. 
That is why I think this is worthy of our attention at this 
very moment.
    Now, Senator Cardin, we are delighted you are here. Would 
you like to make a statement? And then we will go to our panel. 
By the way, you are all free to go. We don't have any questions 
for you, do we?
    Mr. Oberstar. I do want, if I may, Madam Chair, to respond 
to the question about flexibility. Historically, in the 
transportation program, we have given States, at Governors' 
requests, State DOTs' requests, flexibility to move funds from 
one account to another. We gave them flexibility to move up to 
50 percent of their bridge funds to other accounts.
    They moved, in the last 5 years, $4.7 billion out of bridge 
accounts to other accounts, doing an overlay, doing a fix here 
or an access here. Then when the bridge collapsed, it was, oh, 
my goodness, we need flexibility. Well, you had in and you 
squandered it.
    Now, if in the case of Wyoming, they have not flexed their 
money out of the bridge account and used it, then they are not 
disadvantaged by the provisions in this legislation.
    Senator Boxer. I think that is a good point. Let me just 
respond, then I will turn to my friend.
    I have had the same complaints about this bill from my 
people back home. I said, sorry, the fact of the matter is, I 
love you more than I can say, and I trust you, too. But on this 
front, we have so many problems, because money has moved out.
    Yes?
    Senator Inhofe. Let me just say, and Congressman Oberstar 
knows this, our situation in Oklahoma is really about as bad as 
any State. One of the reasons for the hearing today is to hear 
from people on the State level representing these States, 
including Oklahoma. It is true that some of this has been 
transferred, but it has been transferred to an account where it 
can go back and work on bridges and get it done quicker than it 
could be done if you had left it in the one account.
    We will hear this today, from witnesses talking about this. 
You and I and everyone at this table, and the Chairman, we all 
want to accomplish the same thing. So this hearing today is 
going about to hear from the outside, to hear is this the best 
way to do it.
    Mr. Oberstar. Remember that the principle in this 
legislation is, fix your structurally deficient bridges first. 
These are the ones that are going to be identified, vetted by 
the National Academy of Sciences, established in a separate 
structurally deficient bridge account. Fix those first, then 
you can flex your dollars to whatever else you need.
    But if it is not a national priority, then defeat the bill, 
throw the whole thing out. We will deal with that next year in 
the transportation program. We will take every bit of 
flexibility away from the States and say, if these are national 
priorities, then you are going to live with them. But if we are 
going to have a national priority, then we ought to pay tribute 
to it and live with it. And it is a national priority and has 
been to have a bridge account.
    So within that bridge account and within the structurally 
deficient bridges the legislation simply says, fix these first. 
Then you can shift those dollars to whatever other cause you 
care about.
    Senator Boxer. I see we actually did have some questions on 
your birthday for you. But if you need to go elsewhere, of 
course, hope Senator Klobuchar will come up here. Senator 
Coleman, we thank you very much. And Chairman Oberstar, you are 
free to stay, go. We love having you here, so as long as you 
can stay we would love to have you. But both of us will be in 
touch with you on all of these matters.
    Senator Cardin. Madam Chair, before Chairman Oberstar 
leaves, I just really want to make a comment. You were quoting 
the 1987 work. That is my first year in the Congress. I was on 
the Transportation Committee with you in 1987. I just want the 
Committee to know, we saw the passion of the Chairman here 
today in his statements. But there is no person in the U.S. 
Congress who understands the transportation needs of this 
Country better than Chairman Oberstar. Every time I have talked 
to him about any transportation problem in Maryland, he has 
already been there, he knows it, he knows every State in this 
Nation and the needs of every State in this Nation. We are very 
fortunate to have his leadership in the Congress of the United 
States.
    Madam Chair, I am going to ask that my opening statement be 
made a part of the record and just summarize one point, and 
that is what happened last month in Maryland, just to 
underscore your point about the urgency. When an 18-wheeler 
drove off the Chesapeake Bay Bridge, which connects, of course, 
the eastern and western shores of Maryland, the Governor order 
an investigation. We found out that there was u-bolt corrosion, 
which cannot be seen through the normal inspections that are 
currently done with our bridges. They needed ultrasound to do 
it. It wasn't part of the standard protocol.
    And just understanding your point, we need to have better 
inspections. As a result of not doing that maintenance, we now 
have a huge problem of maintenance on that bridge, which is 
causing economic problems for the eastern shore of Maryland. 
Just pointing out, you are right, we should have acted before, 
let's act on the urgency that this issue demands.
    Thank you, Madam Chair. I would yield back the balance of 
my time.
    [The prepared statement of Senator Cardin follows:]
          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland
    Thank you, Madam Chair. Everyday 4 billion vehicles cross bridges 
in the United States. The American Society of Civil Engineers, in its 
2005 Report Card for America's Infrastructure, found that 27.1 percent, 
or more than 160,000 of the nation's 600,000 bridges, were structurally 
deficient or functionally obsolete.
    In Maryland 29 percent of my state's bridges were rated as 
structurally deficient or functionally obsolete. The Maryland State 
Highway Administration has cited an unfunded preservation need of $221 
million just for bridge replacement and rehabilitation.
    Madame Chair, we have a lot of bridges in America and they need a 
lot of work. I join my colleagues in supporting a bold investment plan 
to save our nation's bridges. I also think we need to begin to utilize 
promising technologies that improve the thoroughness of bridge 
inspections.
    Just last month in Maryland, a tragic accident on the eastbound 
span of the Chesapeake Bay Bridge sent an 18-wheel tractor trailer over 
a jersey barrier and into the Chesapeake Bay, killing the driver. The 
original span of the Bay Bridge opened in 1952. The accident last month 
marks the first time that a vehicle has jumped the bridge's jersey 
rail. In many respects that is an enviable safety record, but it is 
clearly not good enough.
    Maryland Governor O'Malley ordered State transportation officials 
to immediately investigate the causes of the crash and to re-inspect 
the bridge. State inspectors found corroded steel in the U-bolts, which 
fasten the barriers to the deck of the bridge. According to the chief 
engineer of the Maryland Transportation Authority, the U-bolt corrosion 
had been overlooked in the past because routine annual inspections are 
visual.
    This corrosion was identified only because ultrasound and radar 
were used to penetrate into the structure of the bridge. This discovery 
demonstrates the advantage of newer technologies for bridge inspection. 
We know Maryland is not the only State that has experienced bridge 
corrosion, or tragedy related to deteriorating bridges, in recent 
years.
    The memories of the collapse of a bridge on InterState 35 West in 
Minneapolis just over a year ago, which killed 13, are still with us. 
In addition to the public safety concern, this is an economic and 
American competitiveness issue.
    The U.S. Chamber of Commerce points out that without significant 
repairs and new construction, our aging roads, bridges, and transit 
cannot begin to handle the growing transportation needs that commuters, 
emergency responders, truckers and delivery drivers, and law 
enforcement require on a daily basis. The economy depends on the 
soundness of our bridges as well.
    We are seeing that impact right now. The lane closures on the 
Chesapeake Bay Bridge are having a major impact on the economic 
vitality of my state's economy, especially on the Eastern Shore. We 
need a bold investment plan for our nation's bridges and other 
infrastructure.
    We also need to utilize the latest in screening and inspection 
technologie--such as radar, ultrasound and other electronic sensors--to 
assess which bridges need attention first. These technologies can save 
money and save lives. Washington needs to once again take the 
development of our national infrastructure as a serious national issue, 
for our security, our economy, and to ensure American competitiveness. 
This hearing and the legislation we are considering start us down that 
neglected path.
    Thank you.

    Senator Boxer. Thank you, Senator Cardin.
    Mr. Oberstar. What we would propose in this also is to use 
aviation technology, non-destructive testing capability, to 
find those very failures of u-bolts, pigeon droppings that 
cause corrosion, use that in our bridges instead of drawing 
chains across the bridge and listening to hear if there is 
something deficient.
    Senator Boxer. Well, we can't thank you enough for your 
leadership. And we are just pleased to have you on your 
birthday.
    We have two panels. Panel two, Hon. Thomas Madison, Jr., 
Administrator, FHWA, and Ms. Katherine Siggerud, Managing 
Director, Physical Infrastructure, Government Accountability 
Office. We are very happy to have both of you here. We are 
going to start it off with Hon. Thomas Madison. We have a 5-
minute clock, so try to stay to that if you can. And we will 
put your full statement in the record.
    Welcome, sir. And by the way, thank you for staying in 
touch with us so closely on the problems in the Trust Fund. It 
meant a lot when you phoned us. Thank you very much.

   STATEMENT OF HON. THOMAS J. MADISON, JR., ADMINISTRATOR, 
                 FEDERAL HIGHWAY ADMINISTRATION

    Mr. Madison. Thank you very much, Madam Chairman, Ranking 
Member Inhofe and members of the Committee. I am honored to be 
here today to discuss the Federal Highway Administration's 
Highway Bridge Program.
    First, I want to address the other topic, Madam Chairman, 
that I think is on the forefront of all of our minds today, and 
that is the imminent cash shortfall in the Highway Trust Fund. 
The Administration and Congress have been aware of the 
predicted shortfall for several years. Recently, the time line 
was accelerated by an unprecedented drop in the gas tax, the 
primary funding source for the highway program. FHWA has been 
closely monitoring the highway account and had determined that 
if the balance reached $3 billion or less, we would need to 
take action to manage the cash-flow.
    The severity of the situation became evident in late 
August, particularly after the highway account was reduced by 
$631 million based upon the Treasury's certification of actual 
second quarter receipts for Fiscal Year 2008. FHWA is taking 
steps to stretch revenues and allow for continued reimbursement 
to States on an equitable basis. Starting tomorrow, FHWA will 
make reimbursements on a weekly basis rather than twice daily. 
Next week, if the total amount of reimbursement requests 
exceeds available cash, each State will receive a prorated 
share.
    Our States work hard to keep the Nation's bridges and roads 
safe and in good repair, and they shouldn't have to suffer 
because Federal spending is outpacing revenues. That is why the 
Secretary called on Congress to pass legislation to provide $8 
billion from the general fund to cover the shortfall in the 
trust fund.
    The transfer is only a short-term fix. The unpredictability 
of the fuel tax revenues is a clear sign that we must 
fundamentally change our approach to transportation financing 
in America. The question we must ask is not how to make the 
trust fund solvent into the future, but how can we make the 
trust fund effective to solve our transportation challenges. 
Even if gas prices stabilize, more fuel efficient vehicles and 
other conservation measures make the gas tax less and less 
sustainable.
    Now to address the subject of today's hearing, America's 
bridge program. Although the Nation's bridge population is 
aging, contrary to popular press reports and some of the 
information we have heard already this morning, the condition 
of bridges is improving. Working with States, we reduced the 
percentage of structurally deficient bridges from 19.4 percent 
in 1994 to 12.4 percent today. We must maintain this trend and 
improve the safety and integrity of bridges while improving 
system performance and reliability. To do this will require new 
and innovative ways to sustain funding for infrastructure.
    The Secretary's recently announced proposal to reform the 
way transportation decisions and investments are made would 
provide States with more flexibility and make it easier for 
them to attract new forms of investment and add capacity where 
congestion is worst. A new, more focused program structure 
would target bridge funding at those projects that truly need 
investment. In addition, the Bridge Inspection Program and the 
National Bridge Inventory would remain firmly in place.
    Two weeks ago, I also visited the site of the tragic I-35W 
bridge collapse in Minneapolis. I was very impressed by the 
innovations, the technologies and the dedication of the staff, 
both from the public sector and the private sector, that are 
working together to re-open this bridge well ahead of the 
intended schedule. While the reasons for the collapse remain 
uncertain, I can assure you that FHWA will learn quickly and 
widely distribute the lessons that we learn from the 
investigation to help prevent a similar tragedy in the future.
    To conclude, I join Secretary Peters in urging your support 
for legislation enabling an $8 billion general fund transfer to 
the Highway Trust Fund. Quick passage of a clean bill 
transferring these funds will allow us to fulfill our 
obligations under SAFETEA-LU and continue our support for the 
safety and construction programs funded by the trust fund, even 
as we work together on long-range funding solutions for our 
bridges and roads.
    Thank you again for the opportunity to appear before you 
today, Madam Chairman and Committee, and I would be happy to 
try and answer any questions for you.
    [The prepared statement of Mr. Madison follows
    [GRAPHIC] [TIFF OMITTED] T8907.001
    
    [GRAPHIC] [TIFF OMITTED] T8907.002
    
    [GRAPHIC] [TIFF OMITTED] T8907.003
    
    [GRAPHIC] [TIFF OMITTED] T8907.004
    
    [GRAPHIC] [TIFF OMITTED] T8907.005
    
    [GRAPHIC] [TIFF OMITTED] T8907.006
    
    [GRAPHIC] [TIFF OMITTED] T8907.007
    
    [GRAPHIC] [TIFF OMITTED] T8907.008
    
    [GRAPHIC] [TIFF OMITTED] T8907.009
    
    [GRAPHIC] [TIFF OMITTED] T8907.010
    
    [GRAPHIC] [TIFF OMITTED] T8907.162
    
    [GRAPHIC] [TIFF OMITTED] T8907.163
    
    [GRAPHIC] [TIFF OMITTED] T8907.164
    
    [GRAPHIC] [TIFF OMITTED] T8907.165
    
    [GRAPHIC] [TIFF OMITTED] T8907.166
    
    [GRAPHIC] [TIFF OMITTED] T8907.167
    
    [GRAPHIC] [TIFF OMITTED] T8907.168
    
    [GRAPHIC] [TIFF OMITTED] T8907.169
    
    [GRAPHIC] [TIFF OMITTED] T8907.170
    
    [GRAPHIC] [TIFF OMITTED] T8907.171
    
    Senator Boxer. Thank you very much.
    And now we will hear from Katherine Siggerud, Managing 
Director of Physical Infrastructure Issues from the GAO. 
Welcome.

 STATEMENT OF KATHERINE SIGGERUD, MANAGING DIRECTOR, PHYSICAL 
INFRASTRUCTURE ISSUES, UNITED STATES GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Siggerud. Thank you, Chairman Boxer, Ranking Member 
Inhofe, members of the Committee.
    Thank you for inviting me to today's hearing on the Federal 
bridge program and the proposed bridge legislation that is 
before this Committee. We are all aware of the shocking 
collapse of the I-35W bridge in Minneapolis last year. It has 
of course raised questions about the condition and safety of 
our Nation's bridges and about the Federal programs that fund 
their inspection and repair.
    I am here today to discuss the work that this Committee and 
the Homeland Security and Government Affairs Committee 
requested of us regarding the Federal program. To the extent 
that our work touches on areas of the proposed legislation, I 
will also provide those observations.
    To provide context, our review focused on the Highway 
Bridge Program that provides annual formula grants, over $4 
billion in 2007, to States for replacing and rehabilitating 
bridges. While most bridges are in good condition, inspections 
result in some bridges being classified as deficient. This 
includes structurally deficient bridges that have at least one 
component in poor condition and functionally obsolete bridges, 
whose current design is no longer adequate for the traffic they 
serve.
    You asked us to review how States use the bridge program 
and make decisions about funding bridge improvements. It is 
important to understand that the program gives States broad 
discretion to use program funds and select bridge projects. 
Some States are focused on reducing their number of deficient 
bridges, while other States are pursuing additional bridge 
safety priorities. For example, California, as you noted, Madam 
Chair, has focused on seismically retrofitting bridges.
    While classifying bridges as deficient is a useful snapshot 
of their condition, it is generally not viewed as useful for 
setting repair priorities, because it doesn't always equate to 
immediate safety risk. Therefore, many States have developed 
tools for selecting bridge projects that go beyond the Federal 
rating system. These include bridge management systems, 
capturing detailed information about bridge elements and State-
specific bridge condition ratings. The program allows States to 
transfer a portion of the bridge program funds to other Federal 
highway programs and about half of them have done that at some 
point since 1998. The overall effect of this is difficult to 
determine, since States have also used funds from other Federal 
highway programs for bridge repairs.
    There is good news with regard to bridge condition. The 
number of structurally deficient bridges has decreased by 22 
percent over the past decade. But continuing this level of 
progress on bridges will be difficult, given aging of the 
significant number of bridges built in the 1950's and 1960's. 
The overall improvement we found is most notable on rural 
bridges and locally owned as opposed to State bridges. It is 
likely that the bridge program made a contribution to these 
improvements. But the extent was hard to determine because the 
program is only one of several funding sources the States use.
    In addition, as I noted, States are using the funds both 
for reducing their deficient bridges and for other purposes 
whose results are not measured. In our view, given the 
significant needs and fiscal challenges facing this and other 
Federal Aid Highway programs, it is important to assure that 
this program is having strong results. Both next year's 
authorization and the legislation we are discussing today 
provide an opportunity to do so.
    With regard to reauthorization, we have established several 
principles for the reform of the Federal Aid Highway program 
that we applied in our review of the bridge program. First, are 
there clearly identified interests and program goals that 
reflect them? The program's broad eligibility makes nearly any 
bridge potentially eligible for Federal funding. Reconsidering 
this policy could lead to a focus, for example, on passenger 
and freight mobility along with safety that could guide the use 
of Federal bridge dollars. The legislation's requirement that 
all of its additional funds be focused on structurally 
deficient bridges on the national highway system could be a 
step in the direction of defining the Federal interest.
    Second, programs should tie together funding, performance 
and accountability. The program does not require that goals be 
set and progress be measured in its formula, like other parts 
of the Federal Aid Highway Program, and does not tie States' 
level of funding to performance improvements. The legislation's 
requirement for risk-based prioritization and performance plans 
has the potential to move in this direction, depending on how 
these are implemented. In our view, these would be most 
effective if, one, they are also used to measure and report 
results; two, they are tied to funding; and three, they build 
on, rather than replace, similar systems already in place in 
many States.
    Furthermore, it would be most useful to consider these 
reforms together with an overall reform of surface 
transportation programs that are facing similar issues focused 
on performance and accountability.
    Finally, fiscal sustainability is a significant challenge. 
Analysis shows that additional investments in bridges and roads 
in general, if properly prioritized, will have important safety 
and economic benefits. Bridges are aging and the demand for 
these projects will continue and likely increase. This will 
need to be addressed in overall revisions of the Federal Aid 
Highway program and actions to address the crisis in the 
Highway Trust Fund.
    Chairman Boxer, this concludes my statement. I am happy to 
answer any questions you may have.
    [The prepared statement of Ms. Siggerud follows:]
    [GRAPHIC] [TIFF OMITTED] T8907.011
    
    [GRAPHIC] [TIFF OMITTED] T8907.012
    
    [GRAPHIC] [TIFF OMITTED] T8907.013
    
    [GRAPHIC] [TIFF OMITTED] T8907.014
    
    [GRAPHIC] [TIFF OMITTED] T8907.015
    
    [GRAPHIC] [TIFF OMITTED] T8907.016
    
    [GRAPHIC] [TIFF OMITTED] T8907.017
    
    [GRAPHIC] [TIFF OMITTED] T8907.018
    
    [GRAPHIC] [TIFF OMITTED] T8907.019
    
    [GRAPHIC] [TIFF OMITTED] T8907.020
    
    [GRAPHIC] [TIFF OMITTED] T8907.021
    
    [GRAPHIC] [TIFF OMITTED] T8907.022
    
    [GRAPHIC] [TIFF OMITTED] T8907.023
    
    [GRAPHIC] [TIFF OMITTED] T8907.024
    
    [GRAPHIC] [TIFF OMITTED] T8907.025
    
    [GRAPHIC] [TIFF OMITTED] T8907.026
    
    [GRAPHIC] [TIFF OMITTED] T8907.027
    
    [GRAPHIC] [TIFF OMITTED] T8907.028
    
    [GRAPHIC] [TIFF OMITTED] T8907.029
    
    [GRAPHIC] [TIFF OMITTED] T8907.030
    
    [GRAPHIC] [TIFF OMITTED] T8907.031
    
    [GRAPHIC] [TIFF OMITTED] T8907.032
    
    [GRAPHIC] [TIFF OMITTED] T8907.033
    
    [GRAPHIC] [TIFF OMITTED] T8907.034
    
    [GRAPHIC] [TIFF OMITTED] T8907.141
    
    [GRAPHIC] [TIFF OMITTED] T8907.142
    
    [GRAPHIC] [TIFF OMITTED] T8907.143
    
    [GRAPHIC] [TIFF OMITTED] T8907.144
    
    [GRAPHIC] [TIFF OMITTED] T8907.145
    
    Senator Boxer. Thank you so much.
    Just to underscore what Mr. Madison said, clearly we are 
going to be working all day today. We had another impasse this 
morning, so we are going to try to keep on working on the trust 
fund. We can't, we can't have a failure here, because we have 
84,000 people who lost their jobs in August. We can't do this. 
So hopefully we can move it.
    I want to talk about the bridges. Your testimony presents 
your belief, your written testimony, that the current condition 
of our Nation's bridges does not represent a safety crisis. How 
do you explain the recent failure of a major interState bridge 
in Minnesota and the high number of structurally deficient 
bridges in every State and the anecdotal evidence we heard just 
today that bridges are being closed? And you say there is not a 
safety crisis. How do you square that with what is going on?
    Mr. Madison. Thank you, Madam Chairman, for the question.
    That is accurate, we don't believe that there is a crisis 
with respect to bridge safety in America right now. The fact 
that a percentage of bridges are structurally deficient or 
categorized as deficient in some form or fashion doesn't 
necessarily mean that they are unsafe. So when you mentioned 
the tragedy at the I-35W bridge in Minnesota, while NTSB has 
not yet concluded its findings and given us a final report on 
what they believe happened, it doesn't appear that it was a 
condition-related circumstance. That is to say, their 
intermediate report in January indicated that it may have been 
or is likely to have been a design flaw at that particular 
structure that caused the tragedy.
    In general, we have seen an increase in investment by 
States in their bridge programs. Despite the shifting funds 
from different accounts that we heard about in earlier 
testimony today, we have seen a significant increase in the 
amount of money that is being invested by States in their 
bridges. Consequently we have seen a reduction in the overall 
number of deficient bridges in America.
    Senator Boxer. And we have heard some numbers here. The 
structurally deficient number, what is that number you have for 
the number of bridges that are structurally deficient in the 
United States of America?
    Mr. Madison. Madam Chairman, I believe that of the 600,000 
bridges, roughly, in America, about 126,000 on the national 
highway system are categorized as deficient.
    Senator Boxer. OK. So let's talk about that, Mr. Madison. 
Because I have to tell you, I heard the same thing from my 
State people. Just because you say something is structurally 
deficient, that shouldn't indicate a problem. What? What? That 
defies common sense. Why do we do this? Why do we test these 
bridges if we are not going to pay attention to what we find?
    Now, out of the 600,000, 126,000 are structurally 
deficient. What do you suggest that we do, just sit around and 
wait for them to collapse? What do you think? Should we work on 
them? Should we have a special program, as Senator Klobuchar 
wants to do, I want to do, others want to do? To just go ahead 
and have them ranked and go in an order of which ones are more 
structurally deficient?
    What word would you rather use? What words would you rather 
use? When any average American hears the words, your home is 
structurally deficient, somebody tells you that, what do you 
mean? Well, it could collapse in an earthquake. Oh, OK. The 
roof could collapse. It has a couple of problems in the back 
yard because the soil is eroding. Oh, well, do you think I 
should do something about it?
    I will tell you, the engineer that says no I am getting rid 
of. I want to know how I fix it.
    So I am confused. Do you think we should change our 
terminology so people don't get the ``wrong idea?'' If there is 
nothing wrong with these--what is wrong with these 120,000 
bridges?
    Mr. Madison. I am not suggesting that we change the 
terminology, Madam Chairman, only that we understand it. You 
make an excellent point; the terms structurally deficient or 
functionally obsolete are engineering terms that the public 
would view as requiring a greater sense of urgency.
    Senator Boxer. What does structurally deficient mean? I 
know functionally obsolete is another problem. But structurally 
deficient, what is your definition?
    Mr. Madison. I will give you my definition, but could I 
just correct something that I said earlier to you?
    Senator Boxer. Yes.
    Mr. Madison. That is, 126,000 bridges are deficient. And 
within that deficiency category, there are structurally 
deficient and functionally obsolete bridges. So there are 
approximately 74,000 structurally deficient bridges.
    Senator Boxer. I'm very appreciative of that.
    Mr. Madison. The definition essentially means that most 
bridges are dynamic structures that have multiple constituent 
parts. Each of those parts is inspected as required at a 
regular inspection interval. So when there are structural 
issues with a particular component of a bridge, it is given a 
condition rating. The overall rating of the bridge would 
indicate whether or not it would be categorized as structurally 
deficient. That does not mean that it is unsafe or that there 
is imminent danger in the structure having a failure or 
collapse.
    Senator Boxer. OK, and I will close with this, so let me 
just say that your definition, your Federal Highway people 
said, it is a bridge which has deteriorated conditions of 
significant bridge elements. Let me say that again. Because 
this playing down, oh, it is structurally deficient, no big 
deal, let's see what you people said. A bridge which has 
deteriorated conditions of significant bridge elements and 
reduced load care and capacity, or the waterway opening beneath 
the bridge is insufficient and causing significant 
interruptions. A structurally deficient bridge is often weight-
limited, requires immediate rehabilitation to remain open or it 
is closed.
    So let's not have the American people misunderstand here. 
If a bridge is deemed structurally deficient, it is often 
weight-limited, require immediate rehabilitation or it is 
closed. Now, if we just let the American people think that what 
we say doesn't matter, that is a problem. I have a problem with 
this. Excuse me for saying this, but I honestly believe it is, 
we are at a point where we are short of funds, so we try to 
wish away what is staring us in the face. I don't think that 
Senator Inhofe and I want to do that. Now, we may come out with 
different recipes on how to fix it. But I think let's at least 
admit the truth, especially after this bridge collapse.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    First of all, I ask unanimous consent that a statement by 
NACE International, which is a professional technical 
association working to reduce the effects of corrosion on 
infrastructure, be inserted into the record.
    Senator Boxer. Absolutely without objection.
    [The referenced material follows:]
    [GRAPHIC] [TIFF OMITTED] T8907.125
    
    [GRAPHIC] [TIFF OMITTED] T8907.126
    
    Senator Inhofe. And let me also State, because there is 
some confusion here, on the whole issue, the funding problem, 
the crisis that we are in right now. I support the fix that is 
out there. I do know there are problems that people have with 
the way that we have put our authorization bills together in 
the past. I want to correct those. But the time to do that is 
not now, during the crisis. The time to do that is in the 2009 
reauthorization bill. I just hope that people understand that 
we have a crisis, we need to fix it and we will address these 
problems. We need to do it in a way that we can deliberate and 
spend time on it and get it done.
    Mr. Administrator, I will ask you a question that sounds 
like a tough question, but it is easy for you, because are the 
new guy on the block. So none of this is your fault. I am not 
as satisfied as everyone else seems to be that we had adequate 
notice of this crisis. I do know that we had no anticipation as 
to what would happen to the trust fund because so many people 
think of the taxes being a percentage as opposed to what it 
really is, a centage, which means price goes up, the revenues 
go down.
    Why did it take so long? Why did we not just wake up 1 day 
and find out the crisis is here? Why didn't we have more 
adequate warning? What do you think?
    Mr. Madison. It is a very fair question, Senator. Let me 
try and address it as best I can, because as you indicate, some 
of this activity predated my tenure here at Federal Highways. 
But essentially in hearings like this, Secretary Peters, others 
from the DOT, and the Administration have been predicting for 
years that we were likely to have a cash shortfall in the 
Highway Trust Fund, potentially by the end of the 
reauthorization period in September 2009.
    In recent months, in fact, as recently as July, that 
prediction or that forecast was changed to indicate that the 
shortfall may occur as soon as October of this year. And the 
primary cause for that, as you indicate, is the dramatic 
increase in gasoline prices, which caused the precipitous drop 
in vehicle miles traveled. We saw in a relatively short period 
of about 8 months 50 billion vehicle miles traveled less than 
we would have typically seen in previous years. So the dramatic 
reduction in vehicle miles traveled meant a lot less money was 
going into the Highway Trust Fund.
    At the same time, Senator, at the end of the Fiscal Year 
and at the end of this construction season, we typically see 
every year in July, August, and September, the requests from 
the States typically increased. So we reached this impasse 
several weeks sooner than what was originally predicted.
    Senator Inhofe. I understand that. I didn't feel, and I 
have talked to Director Ridley several times, too. We were both 
concerned that this came precipitously and we didn't have 
adequate time. But we understand pretty much. I just wanted you 
to get on record on that.
    Nothing really much has been said about the jobs. I think 
that is a secondary, it is important, you have so many people 
out there anticipating that they are going to be, they are on 
the line, they have their shovels in their hand, they are ready 
to go to work, then all of a sudden the rug is pulled out from 
under them. Do you have any brief comment you can make on what 
not fixing it in a timely fashion will have on jobs nationally?
    Mr. Madison. It will have an impact, Senator. In fact, I 
was talking with your----
    Senator Inhofe. Any numbers of guesses?
    Mr. Madison. I don't have numbers, because----
    Senator Boxer. I have the sheet. It is over 300,000 jobs.
    Senator Inhofe. OK. I just wanted to get it on record.
    Senator Boxer. Do you have the sheet? Could we give it to 
Senator Inhofe?
    Senator Inhofe. That is all right, I just wanted to get 
this in the record.
    Senator Boxer. Good.
    Senator Inhofe. I have the sheet, too.
    Mr. Madison. Senator, as you know, much of the 
reimbursements from the Highway Trust Fund are for projects 
that are either already completed or are significantly 
underway. So we have been working very closely with the States 
since the announcement on Friday. Our first priority is to try 
and have an equitable distribution plan to be fair to all 
States to ensure that, to the best we can, we help them 
prioritize their bills to us so that we can fund them 
appropriately and tailor those priorities to each State.
    I have talked with Director Ridley and we have been in 
contact with all the other States. There are varying degrees of 
impact, depending on where States are in their bond position or 
debt position or other circumstances. But as I think you will 
hear from Director Ridley later, this will have a dramatic 
impact and potentially immediate impact in your State, if a fix 
isn't handed down.
    Senator Inhofe. I know that is true, and I have talked to 
Director Ridley about that. In fact, the other questions I was 
going to ask you, I will wait for the third panel. But I would 
say this, that the poor condition of the bridges is widely 
publicized. We all know that. Do you think that our bridges are 
more dangerous or in worse condition relative to the rest of 
our highway infrastructure? And do you think that we should 
have a separate bridge program or would it be better to require 
States to evaluate their transportation needs and priorities as 
a whole?
    I ask this question because as close a friend as 
Congressman Oberstar is, I always get a little bit upset when 
somebody says, well, we will take care of it here at the 
Federal level because the States are not capable of doing it. 
Do you have an answer to the question in terms of other--there 
are other dangers, too, that are out there, other than just 
bridges.
    Mr. Madison. That is right. It is difficult to compare 
conditions or have a ratio between bridges and highway 
conditions. But I will say, to answer your question, yes, we 
should have a national bridge program. We don't believe that 
Senator Klobuchar's and Chairman Oberstar's bill is exactly the 
right way to go about that. I say that respectfully, because we 
worked closely with their staffs in developing this 
legislation.
    But we believe that as was mentioned earlier today, 
flexibility to the maximum extent possible should be given to 
folks like Gary Ridley and the Governors of States to handle 
funding priorities as they look at their own bridges in their 
States, because they are the ones that are doing the 
inspections, and know first-hand where their priorities should 
be.
    Senator Inhofe. That is an excellent answer, Mr. 
Administrator. Thank you very much.
    Thank you, Madam Chair.
    Senator Boxer. Let me just put in the record, since my 
Ranking Member has made a very good point here about the jobs. 
I do think it is important to note that five times on the floor 
of the U.S. Senate we tried to make this fix. The President 
threatened to veto several of those times. So I was very 
grateful when you did finally come around. But it is kind of 
tough.
    Now you are saying, urgent, urgent, you have turned the 
alarm bell into a siren. We hear it. But just to be specific, 
in Oklahoma, or Minnesota, 4,962 jobs are at stake. In 
Oklahoma, let me make sure I get this line right, 6,009 jobs 
are at stake, and in California, 32,315 jobs are at stake here. 
All told, 379,537. Do you have this sheet?
    Mr. Madison. I do not, Senator.
    Senator Boxer. OK, we will get you this sheet. And we will 
put this in the record, without objection.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T8907.124
    
    Senator Boxer. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair. Thank 
you to our witnesses and the work you are doing. Welcome, Mr. 
Madison. I appreciated our meeting yesterday.
    I just wanted to clarify one thing you said about the 35W 
bridge, where you said it appears as though it was a design 
defect, and it does appear, as Chairman Oberstar so 
articulately described about the lack of a backup system, 
basically, is how I explain it, in the bridge, and redundancy. 
But I do think it is important that you know that on July 28th, 
actually Chairman Rosenker sort of changed his talk a little 
bit about this. He had always said it was a design defect and 
there is no way it could have been discovered on inspection. He 
then said publicly, and I will ask to put this article from the 
Minneapolis Star and Tribune dated July 28th, 2008 in the 
record, Madam Chair. He actually said that one of the things 
they are looking at is photos from 1999 which showed, and I 
mentioned this in my testimony, which showed problems with 
these plates and showed that they may have been warped. They 
are looking into whether or not that should have been caught on 
inspection.
    I don't know if you are aware of that, but I think it is 
important, as we talk about the need for better bridge 
inspections, and again, we do not know the conclusions of this 
report. But he himself brought this up. This wasn't some 
investigative report. He himself went out of his way to say 
that they are now looking at whether that should have been 
caught on inspection. Were you aware of that?
    Mr. Madison. Thank you for the clarification, Senator. I 
personally was not aware of that. However, I met with Chairman 
Rosenker last week and he praised the working relationship that 
the Federal Highways Administration's research and technical 
experts have with NTSB and they have been working hand in glove 
to analyze and do the forensic analysis. So while I wasn't 
personally aware, I am quite certain that our experts at the 
Federal Highway Administration were aware of that. Thank you.
    Senator Klobuchar. Again, I know many of the people at 
MinnDOT. They do a good job. My uncle used to work there in 
Rochester, Minnesota. But the point of this is there may have 
been a problem with the inspections as well. And when the 
bridge collapsed, actually right afterwards a lot of people 
were saying, we knew which bridge that was.
    So I don't think that we should come to any conclusions 
that yes, it was design defect, but we don't know, there may 
have been a problem with the inspection process, which gets me 
to our bill and what we have been talking about here.
    Now, the bill that we have would change things in terms of, 
as Chairman Boxer has been explaining, not allowing States to 
transfer out of the Highway Bridge Program. It just seems odd 
to me that we have this highway bridge problem, we know there 
are bridges, not only I-35, but St. Cloud and other places that 
are in need of repair. So does the Administration actually 
support allowing States to take the money out of the bridge 
program when there are these structurally deficient bridges and 
put it elsewhere?
    Mr. Madison. What we have seen and what was described 
earlier, Senator, is accurate. There are transfers of funds 
from different accounts. But again, I want to reiterate that in 
the aggregate, we have seen more spending by the States than 
has been prescribed in our Highway Bridge Program. On average, 
in the last 5 years, States have spent about an additional $820 
million a year. So we don't disagree, and I think you are going 
to hear more about this in the GAO report, that there needs to 
be more focus on these funding programs and they need to be 
more clear in terms of performance measures. But in terms of 
spending on the bridges and the general condition of our 
bridges in America, we don't characterize then at this point as 
a crisis or safety crisis.
    Senator Klobuchar. Yes, we call it what it is, but Senator 
Cardin just talked about boats, a truck going off the bridge, 
there are clearly some issues here. All we are trying to do is 
say if we call this a bridge program, then let's make it a 
bridge program and let's make it a first-class bridge program 
in terms of the way that we do inspection. I know that current 
law calls for routine bridge inspections at least once every 24 
months, including bridges that are structurally deficient. Our 
bill calls for inspection of these structurally deficient 
bridges, not all bridges, every year. Why would you want to 
allow 2 years to pass?
    Mr. Madison. We believe that, while the current 24 month 
minimum requirement should exists, bridge inspections should be 
done on a risk-based system. In other words, again, States know 
and like you mentioned, your MinnDOT folks know which bridges 
may be in the worst State of disrepair. So they prioritize 
those accordingly. They report that information to us and we 
maintain it in a National Bridge Inventory.
    But we don't believe the right solution at this time is for 
Washington to prescribe a set number of bridge inspections and 
a blanket approach for all bridges, even all structurally 
deficient bridges or those bridges that are categorized with 
that term, because it would be an onerous mandate on States, to 
come up with the resources to pay for all those inspections 
that may not necessarily equate to additional safety.
    Senator Klobuchar. You know, again, our bill does have a 
rational basis in that we are focusing on these structurally 
deficient bridges. My issue here is that we clearly have had a 
problem here, and we will see what the NTSB said, but Chairman 
Rosenker was clearly indicating that there were some pictures 
showing these things were warped in some way. And we have 
Senator Cardin talking about how they discovered some bolts 
underneath.
    When we look at what has been happening, where the money 
hasn't been always going in every State, maybe in Wyoming, but 
to these bridges, it just seems to me that this isn't a Federal 
mandate. We are putting Federal money into bridges and we want 
to make sure it is used in the best way, instead of just a pork 
barrel way across the Country, that it is used on the bridges 
that are deemed to be a risk to public safety. That is what we 
are trying to do here.
    Mr. Madison. Thank you, and I understand that, Senator. If 
I may, I would like to point out that, the current regulatory 
minimum requirement is every 24months, and that about 83 
percent of our bridges are inspected every 2 years. Another 12 
percent are inspected annually already, and the balance is done 
on a longer interval.
    Senator Klobuchar. OK, thank you very much. I appreciate 
it.
    Senator Boxer. Thank you.
    I wanted to talk to GAO, first of all, it is very 
fortuitous timing. A year ago, Senator Inhofe and I, as Ranking 
Member and Chair of this Committee, along with Senators Levin 
and Coleman, on Homeland Security, requested this report. Now 
it comes out today and it comes out just about the time that we 
are hoping to mark up Senator Klobuchar's bill.
    I know that GAO doesn't take positions on bills, and I am 
not asking you that at all, although the Administration opposes 
it, which doesn't surprise me. What do you consider to be the 
key findings of the report that you are releasing today, in the 
plainest of language? If you would say the top three findings 
or five or two, what would they be?
    Ms. Siggerud. That is a tough assignment, Senator Boxer, 
but I will get right into it. I think it is first of all 
important to understand that we did find some good news in 
terms of improvement in conditions of bridges. But we are very 
concerned long term about the extent to which that slow and 
steady improvement we saw over the past decade will continue to 
be delivered on, given aging and the very important challenges 
we have to resources that we have all been talking about today.
    Senator Boxer. So you would say there has been improvement, 
but in your view, you would like to see it faster? Faster 
improvement?
    Ms. Siggerud. Faster improvement, as well as we realize 
that will be quite difficult, because of the aging bridges and 
the financial pressures that the States are under, and of 
course, the problem in the Highway Trust Fund.
    Senator Boxer. So I am just going to stop you, because I 
want to speak English that is clear. I am not going to speak 
English that says a structurally deficient bridge isn't a 
problem. Because that is like saying this isn't my name. I am 
not doing that. I want to talk realism here.
    So we are pleased we have made some progress. We are 
concerned because the bridges are aging, that is a natural 
thing, we can't reverse it. We have stresses on financing. So 
those two things together give GAO concern, is that fair?
    Ms. Siggerud. Yes.
    Senator Boxer. OK, next.
    Ms. Siggerud. The next point then is that under the 
circumstances, when we have these kinds of challenges and the 
fiscal situation that we are in of what can be done to make 
sure that we are making the very best use of the Federal dollar 
through the Highway Bridge Program. As we have said both for 
this program and for the entire Federal Aid Highway Program, it 
is our view that the Federal interest needs to be defined and 
we need to set performance goals, we need to have 
accountability for those goals, and see what we can do to tie 
the financial flow of dollars from the Federal Government to 
achievement of those goals.
    Senator Boxer. So if I were to translate that into my 
English, it would be, we need to prioritize what we do?
    Ms. Siggerud. Yes.
    Senator Boxer. So we have a problem, it is getting worse 
because of a confluence of factors, and we need to prioritize 
what we do and make sure that we are doing the right thing with 
the dollars in the bridge fund?
    Ms. Siggerud. Right. And there are a number of options for 
doing that, Senator Boxer. One is on the table before you 
today, and that is to decide that we are going to focus on 
certain types of bridges on the national highway system, the 
interState highway system, some particular class of roads that 
we consider to be of the most important national interest. That 
is one option.
    We could also go to the option of having very specific 
performance goals set by States with Federal oversight and then 
holding them accountable and tying the number of dollars States 
get to making progress on the prioritization that we are 
talking about.
    Senator Boxer. Very good.
    Ms. Siggerud. The Senate could also consider in 
reauthorization or through this bill various matching funds, 
depending on the extent to which a particular project is 
related to achieving a national interest.
    Senator Boxer. OK.
    I know that Senator Lautenberg is on his way and wants to 
question the panel. So we will continue.
    Senator Inhofe, do you have any questions for this panel?
    Senator Inhofe. Madam Chairman, I don't. I am anxious to 
get to the third panel, so you go ahead and get your questions 
out of the way.
    Senator Boxer. Senator Klobuchar.
    Senator Klobuchar. Thank you.
    Ms. Siggerud, I have some questions about the report. One 
of the things that you noted in the report is the need to link 
the States' past performance on reducing its inventory of 
bridges as a way to make States more accountable.
    Ms. Siggerud. Yes.
    Senator Klobuchar. I think that is an interesting concept, 
as we look at how can we make sure the money is going where it 
is and divide the money up appropriately. But my concern is 
that with this method, we may have too much of a focus on 
numbers without looking at results and safety. So if we just 
look at the numbers of deficient bridges, do you think it would 
create an incentive for a State to fix many small, easy to 
repair bridges, and this could have a consequence of neglecting 
repairs to larger, high traffic, costly to repair bridges? This 
is not to say they would ever want to have a dangerous bridge 
in their State.
    Ms. Siggerud. Of course.
    Senator Klobuchar. But as they are kind of allocating what 
they do, and I am afraid it would create some kind of, I can 
see in our State they would say, oh, we could get 100 bridges 
done instead of the I-35 bridge. What do you think about this 
unintended incentive, if we were to go that route?
    Ms. Siggerud. There are a number of unintended incentives 
in this program. The current program essentially ties the 
number of deficient bridges and their deck area, the amount of 
the grant that goes to States is based on that number. So to 
the extent that the number of deficient bridges or the amount 
of deck area decreases over time, the States get fewer dollars 
in the following years. But that does not happen if in fact 
those bridges do not improve their condition. So there is 
already an interesting incentive in the current program.
    But I think your question about the number of bridges is 
actually right on, and I would hope that we could move to a 
more nuanced type of performance result in terms of 
incentivizing and rewarding performance.
    The other thing that we did find in working with States is 
that because the amount of dollars available to States every 
year is never sufficient to address all the structurally 
deficient bridges, we said that it often happens that dealing 
with small bridges is a more practical approach, because taking 
on construction of a very large and complicated bridge is 
something that needs to be planned over a long period of time 
and needs more dollars than are typically available from the 
Highway Bridge Program.
    Senator Klobuchar. So do you see why we think it would 
help, and this is why this bill with Congressman Oberstar and 
Senator Durbin and others, that we are trying to come up with a 
way to have some Federal influence in terms of determining 
which ones are truly public safety risks? Do you think that 
would help?
    Ms. Siggerud. It seems to me there are really two parts of 
the bill that get at that. One is the risk prioritization 
concept, and the other is the performance planning concepts. In 
our view, really the devil is in the detail there in terms of 
how those would be implemented. In our work with States, it is 
very clear that many of them are using sophisticated approaches 
in bridge management systems. So to target their priorities, is 
there a way to build on that good information analysis that is 
already available and have these additional tools be useful, 
rather than an add-on.
    Senator Klobuchar. Good. Would you endorse some kind of 
funding bonus for States if they pursued national projects?
    Ms. Siggerud. We haven't looked at that in particular. I 
have to say that is something that came up occasionally in the 
work we have done on this and the rest of the Federal Aid 
Highway Program, is considering different levels of Federal 
match, depending on the relationship to a national interest.
    Senator Klobuchar. And obviously here with our proposal we 
are looking at if they don't fix their bridges first, they are 
not going to get any more money.
    Ms. Siggerud. Right.
    Senator Klobuchar. Mr. Madison, just one last question, I 
see Senator Lautenberg is here, about when this whole collapse 
happened, as we were trying to struggle with, Secretary Peters 
was there that day, came back with us to look at the bridge. I 
was struck by this, there are State inspections, and then there 
are Federal inspections. How is that work divided up and is 
there a better way to do that?
    Mr. Madison. They are not exactly duplicate inspections. In 
fact, our Federal Highway Administration division staff members 
work with the States to monitor their annual bridge programs. 
We audit each State's program to ensure that they are covering 
all the requirements of the National Bridge Inspection 
standards. So we are not necessarily performing double 
inspections, Senator.
    Senator Klobuchar. OK. Thank you very much.
    Senator Boxer. Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Madam Chairman, 
for giving me an opportunity to ask a few questions and to be 
here for this very important meeting. It has been more than a 
year since the dramatic and tragic collapse of the I-35W bridge 
in Minneapolis, and no one has worked harder to try to make a 
remedy, to bring our attention to the terrible tragedy that 
occurred that day than Senator Klobuchar. I congratulate her 
for her effort and look forward to what I think is going to be 
a good outcome as a consequence of her interest and her skill 
here.
    Still today, more than 25 percent of our Nation's bridges 
are classified as deficient. And both our witnesses, and we are 
pleased to see you, it means that these bridges are 
deteriorating to the point where they have structural problems, 
or they are too outdated to handle today's needs. New Jersey, 
the number is 34 percent, or one out of every three bridges 
deserves serious and quick attention. We are fighting hard to 
expand forms of transportation that are more energy efficient, 
more convenient and less dependent on oil. Amtrak, for 
instance, is a perfect example.
    Madam Chairman, I ask unanimous consent that the full 
statement that I have here will be included in the record.
    Senator Boxer. Without objection, so ordered.
    Senator Lautenberg. I thank you.
    [The prepared statement of Senator Lautenberg follows:]
           Statement of Hon. Frank Lautenberg, U.S. Senator 
                      from the State of New Jersey
    Madam Chairman, It's been more than a year since the dramatic and 
tragic collapse of the I-35W Bridge in Minneapolis, Minnesota. And 
still, more than 25 percent of our nation's bridges are classified as 
deficient. That means these bridges are either deteriorating to the 
point where they have structural problems or are too outdated to handle 
today's cars, trucks and buses. In New Jersey, that number is 34 
percent, or one out of every three bridges.
    We are fighting hard to expand forms of transportation that are 
more energy-efficient, more convenient, and less dependent on oil. 
Amtrak is a perfect example. But we must also recognize that, to 
protect our travelers and prepare our nation's infrastructure for the 
future, we need to repair the country's crumbling bridges. Their 
failure is not an option.
    I commend Senator Klobuchar for introducing her legislation to take 
on this challenge. Bridge repairs start with states doing regular and 
thorough inspections. Bridges like the George Washington and Benjamin 
Franklin are critical for drivers traveling in and out of New Jersey. 
Their failure would stall our economy--not to mention the many innocent 
lives that would be put at risk.
    Once states identify safety problems, they need the money to repair 
those problems. Much of this funding comes from the Federal bridge 
program. Unfortunately, we have recently learned that the highway trust 
fund, which funds this program, is running dry. This means work on 
highway and bridge projects around the country is at risk of delay.
    We have tried five times in recent months to replenish the fund, 
but it has been blocked each time. This is unacceptable, and I hope the 
minority allows the Senate to complete its work on the bill to fix this 
shortfall. We cannot take risks with our travelers when it comes to 
their safety or the nation's transportation infrastructure.We need to 
modernize our bridges even as we focus on other forms of transportation 
at the same time.
    Thank you Madam Chairman. I look forward to today's testimony.

    Senator Lautenberg. I would like to ask Mr. Madison, heavy 
trucks cause more damage to our bridges. Secretary Peters 
recognized this when she was the Arizona transportation 
director in 1999, when she opposed increasing the Federal truck 
weight limit from 80,000 pounds to 97,000 pounds. She cited 
safety concerns and the extra damage to bridges from these 
super-heavy trucks.
    Legislation is now pending in the Senate to allow this 
truck weight limit increase. What does the Administration have 
to say? Do they support or oppose that bill?
    Mr. Madison. We have concerns with the bill, Senator, for 
the reasons that you just described. I think Secretary Peters 
is still of the same mind set that these heavy trucks with 
multiple axles, create significantly more damage on our 
highways and bridges. I don't have specific information that 
would guide us in the State of Maine, but I know if, for 
example, 97,000 pounds 6-axle tractor-semitrailers were allowed 
on the entire National Network, approximately one-third of the 
bridges would be stressed beyond their design rating, leading 
to the deterioration in service life as well as eventual 
requirements for rehabilitation or replacement.
    Senator Lautenberg. According to a report by your agency 
published in 2000, trucks heavier than 80,000 pounds cause--
correct me if I am wrong--twice as much damage to roads and 
bridges as they pay for in Federal fees and highway gas tax. Is 
that true?
    Mr. Madison. That is an answer that I don't have, Senator, 
but I would be happy to get back to you on the record with an 
answer.
    [The referenced information was not received at time of 
print.]
    Senator Lautenberg. How might we get these excess weight 
trucks to pay their fair share of the damage that they cause?
    Mr. Madison. Well, it speaks to the need to reform our 
overall transportation program, which might include managing or 
operating the system differently. And it may include managed 
truck lanes or restricted lanes that are for exclusive use by 
trucks that may be designed or built differently and there 
could potentially be a fee associated with those lanes.
    Senator Lautenberg. The one thing I think that has to 
happen is that the traveling public and their families have the 
right to know that their Government is taking a truly risk-
based approach to fixing the Country's bridges. Wouldn't it be 
a waste to fix bridges which aren't in as bad shape as others, 
assuming that they are used equally? That information is 
important and I think we should make certain that the public is 
aware of that.
    Mr. Madison. We agree completely, Senator.
    Senator Lautenberg. Ms. Siggerud, you said in your 
testimony, States shouldn't be allowed to spend Federal bridge 
funds on other kinds of road projects.
    Ms. Siggerud. Actually what we said, Senator Lautenberg, is 
we simply said that States are using them for other kinds of 
projects. We didn't take a position on the propriety of that. 
Please go ahead.
    Senator Lautenberg. But shouldn't our Federal policies 
require States to fix what infrastructure they have that is not 
up to standard, that is deficient, before getting into new 
infrastructure programs?
    Ms. Siggerud. I think this transfer provision can be very 
troublesome, particularly in certain States where we haven't 
seen replacement of those Federal dollars with other State or 
Federal Aid dollars from other Federal Aid Highway programs. 
Our view, however, is that what we need to do here is determine 
what we want the Federal dollar to do specifically, there is 
very broad eligibility for this program, and then hold States 
accountable for programming projects that meet those Federal 
interests.
    Senator Lautenberg. Right. I think it is fair to say that 
the question arises, shouldn't we get the risk out of travel as 
much as we can, and certainly as we saw once again in 
Minnesota, what can happen? We have seen bridge collapses 
around the Country and we know that a lot of them have such 
serious problems. Shouldn't that come as a priority in our 
transportation efforts?
    Ms. Siggerud. As a representative of GAO, I certainly can't 
argue against risk prioritization. Obviously it is very, very 
important as we decide which transportation projects to fund 
when we have limited State and Federal dollars, safety being 
the very highest priority. But we also need to be looking at 
congestion mobility improvements and a variety of other goals 
that we have, and then using good analysis, to select those 
that most deliver on those problems.
    Senator Lautenberg. Yes. OK, well, I think that risk is the 
first thing. Excuse me, Madam Chairman.
    Senator Boxer. I don't want to rush you at all, except that 
we have a whole other panel. Ask one more question.
    Senator Lautenberg. Mr. Madison, the 2000 report that we 
were discussing, the most common combination vehicles, those 
registered weights between 75,000 and 80,000 pounds, now pay 
only 80 percent of the Federal highway costs. And combinations 
registered between 80,000 and 100,000 pounds pay only half of 
their share of Federal highway costs, and I add my word that 
they create. Any future increase in Federal fuel taxes without 
corresponding increases in taxes on the heaviest trucks will 
further exacerbate the under-payment of Federal funds, user 
fees by heavy trucks. That is a clear statement. I assume you 
stick by that statement.
    Mr. Madison. I am not familiar with that specific 
information, Senator. We can get an answer back to you on the 
record.
    [The referenced information was not received at time of 
print.]
    Senator Lautenberg. Well, it is the final report, U.S. 
Department of Transportation, Federal Highway Administration, 
May 2000. It has not soured under the date.
    Mr. Madison. I have to believe we still wholeheartedly 
support that, Senator.
    Senator Lautenberg. Thank you. Thank you very much, Madam 
Chairman.
    Senator Boxer. Senator, we are so glad you could join us.
    Senator Sanders. And unless Senator Klobuchar has more 
questions, then this will be the last questioning of the panel, 
and we will move to panel three. I appreciate your patience, 
panel three.
    Senator Sanders. Thank you very much, Madam Chair.
    Let me ask both of our panelists a pretty simple question. 
My understanding is that of the total of almost 600,000 bridges 
in the National Bridge Inventory, approximately 12.4 percent 
are structurally deficient, and 14.8 percent are functionally 
obsolete. I could tell you that in rural States like Vermont we 
have a lot of problems. As I mentioned earlier, just in the 
last month, a couple of bridges were shut down, at great 
inconvenience for travelers and for businesses.
    Given that reality of the serious infrastructure problem we 
are facing with bridges, do you believe that we need to 
substantially increase funding for our States and local 
government to make the necessary repairs? Simple question.
    Mr. Madison. We believe that our budget request is the 
appropriate level to fund our bridge program at this time.
    Senator Sanders. You do?
    Mr. Madison. Yes.
    Senator Sanders. Even though bridges all over rural America 
are collapsing and States don't have the money to repair them? 
You think what you are providing is a sufficient sum?
    Mr. Madison. Senator, we believe, again, that the amount of 
money that is provided for bridge programs, reconstruction, and 
new construction is at the appropriate level.
    Senator Sanders. But I ask you a question, if somebody 
needed surgery, somebody was hurting, you would say that they 
are in need of help, but where is the money going to come from? 
How would you tell us with a straight face, when you have heard 
over and over again today, hear it all over America, Governors 
are telling you they don't have the money to repair their 
bridges, they are worried about things like what happened in 
Minnesota? We want to put people back to work. How do you tell 
us with a straight face that this is enough money?
    Mr. Madison. The term that you mentioned, structurally 
deficient, and the other terms that we spoke about earlier, are 
engineering terms that help us manage our bridge system 
nationally and give guidance to the States on how to manage 
their own respective programs, helps prioritize those 
investment decisions. I am certainly not arguing, Senator, that 
our needs in this country do not far outpace the available 
resources, but we believe there needs to be----
    Senator Sanders. You just said the needs outpace the 
available resources?
    Mr. Madison. Correct.
    Senator Sanders. So are you going to go back and fight for 
more resources?
    Mr. Madison. In the Department of Transportation's reform 
proposal, Senator we suggest that it is time for some new and 
innovative financing methodologies that will help us fund 
priorities.
    Senator Sanders. Does that mean more money from the Federal 
Government?
    Mr. Madison. I think it means more flexibility to States to 
make----
    Senator Sanders. I thank you very much. And again, Madam 
Chair, this is exactly what the problem is. You talk to anybody 
in America, they understand our infrastructure is collapsing. 
And these guys keep talking in double talk, we need this, we 
need that, we need everything. But you know what you need? You 
need to put people to work to rebuild our infrastructure. 
Unless you guys are magicians and know how to do that without 
funding, I don't know how you do it. And I think what you are 
hearing is one of the reasons of why we are not addressing a 
major crisis facing this Country.
    If I could ask Ms. Siggerud a question. My understanding is 
that all over America, including the State of Vermont, States 
are not able to utilize the Federal funds that have come in 
because of the matching formula. In other words, States which 
are having financial problems right now can't come up with the 
10 percent or the 20 percent and the Feds are taking back the 
money. Do you think we should be adjusting or taking a look at 
that matching formula so that States could better move that 
money into their infrastructure?
    Ms. Siggerud. Senator Sanders, the GAO has not looked into 
that particular issue or the problems in those States in any 
detail. But what we have said with regard to reauthorization of 
the Federal Aid Highway Program is that the matching formulas 
are a key tool for making sure that we are funding the best 
types of programs and that we may want to revisit that concept, 
depending on where it is we want to take this transportation 
program and how we want to define the Federal interest.
    Senator Sanders. And that is fair enough. But what happens 
if, as is the case right now, a lot of States are having 
financial problems, and they are stealing from Peter to pay 
Paul, and they are not able to come up with the funding and 
they have to return the money. Is that something we want to 
take a look at?
    Ms. Siggerud. I certainly think it should be considered in 
the reauthorization program. I don't have any particular 
recommendations with regard to that situation today.
    Senator Sanders. Madam Chair, I think that is a problem 
that we are seeing around the Country. It doesn't make a whole 
lot of sense if we are giving a grant out and States can't use 
the grant because of financial problems. That is all.
    I would yield to Senator Klobuchar if she had an additional 
question.
    Senator Klobuchar. I already had a second round, I am fine.
    Senator Sanders. Thank you very much.
    Senator Boxer. I want to thank you so very much, both of 
you, for your answers. Obviously this is just the beginning of 
our debate over how we are going to do this, fix our bridges, 
fix our highways, et cetera. So thank you very much.
    We will call up panel three, Mr. Andrew Herrmann, Hardesty 
and Hanover, LLP, on behalf of the American Society of Civil 
Engineers. He is a minority witness. Mr. John Krieger, U.S. 
Public Interest Research Group. He is a minority witness. 
Majority, those two are majority witnesses. So sorry. I was 
wondering.
    OK, Mr. Andrew Herrmann is a majority witness, Mr. Krieger 
is a majority witness. And Mr. Gary Ridley, Director of 
Oklahoma Department of Transportation, on behalf of the 
American Association of State Highway and Transportation 
Officials, and he is a minority witness. My staff reversed this 
whole, entire thing.
    [Laughter.]
    Senator Boxer. But you know what, we are all Americans. So 
whatever. We are all here to challenge our very important 
issues.
    So please start, Mr. Herrmann. We really welcome you and 
the American Society of Civil Engineers.

 STATEMENT OF ANDREW HERRMANN, P.E., F.ASCE, MANAGING PARTNER, 
                   HARDESTY AND HANOVER, LLP

    Mr. Herrmann. Chairman Boxer, Senator Inhofe and members of 
the Committee, good morning. My name is Andrew Herrmann, I 
serve on the board of direction of the American Society of 
Civil Engineers. I am Chairman of the 2009 Report Card of 
America's Infrastructure Advisory Council. I am a senior 
partner of Hardesty and Hanover, a transportation consulting 
engineering firm headquartered in New York.
    During my 35 year career, I have been responsible for many 
of the firm's major bridge projects, with experience in 
inspection, rating, design, rehabilitation and construction of 
bridges. Let me start by thanking you for holding this hearing. 
I can say there are few infrastructure issues of greater 
importance to Americans today than bridge safety.
    In that respect, I am pleased to voice ASCE's strong 
support of the National Highway System Bridge Reconstruction 
and Inspection Act, which would provide dedicated funding to 
the States to repair, rehabilitate and replace structurally 
deficient bridges on the National Highway System. I also would 
like to say that ASCE strongly supports the National Highway 
Trust Fund fix.
    More than 4 billion vehicles cross bridges in the United 
States every day. Like all man-made structures, bridges 
deteriorate. Deferred maintenance accelerates deterioration and 
causes bridges to be more susceptible to failure.
    In 2005, ASCE issued the latest in a series of assessments 
of the Nation's infrastructure. Our 2005 Report Card for 
America's Infrastructure found that as of 2003, 27.1 percent of 
the Nation's bridges were structurally deficient or 
functionally obsolete, an improvement from the 28.5 percent in 
the year 2000. In fact, over the past 15 years, the number of 
deficient bridges has steadily declined from 34.6 percent in 
1992 to 25.6 percent in 2007.
    However, this improvement is contrasted with the fact that 
one in three urban bridges was classified as structurally 
deficient or functionally obsolete, which is much higher than 
the national average.
    For another perspective, the 10-year improvement rate from 
1994 to 2004 was 5.8 percent fewer deficient bridges. If we 
project this rate forward from 2004, it will take until the 
year 2050 to remove all deficient bridges. Unfortunately, the 
rate of deficient bridge reduction from 1998 to 2006 is 
actually decreasing. Using the current projections from 2006, 
all deficient bridges will not be eliminated now until the year 
2063. Progress has been made in the past in removing deficient 
bridges, but our progress is now slipping or leveling off.
    The Federal 2006 Highway Administration's Condition and 
Performance Report estimated that at all levels, $12.4 billion 
in total should be spent on bridge repairs annually. In 2008 
dollars, the American Association of State Highway and 
Transportation Officials last month pegged the total price tag 
at $140 billion to repair or modernize the Nation's bridges.
    There is clearly a demonstrated need to invest additional 
resources in our Nation's bridges. The National Bridge 
Inspection standards in place since the early 1970's require 
biennial safety inspections of bridges to be performed by 
qualified inspectors. Approximately 83 percent of our bridges 
are inspected once every 2 years.
    Standard condition evaluations are documented for 
individual bridge components, as well as ratings for the 
functional aspects of the bridge. These ratings are weighted 
and combined into an overall sufficiency rating for the bridge, 
which can define it as structurally deficient or functionally 
obsolete, both of which trigger the need for remedial action.
    Bridge inspection services should not be considered a 
commodity. Currently, NBIS regulations do not require bridge 
inspectors to be professional engineers, but do require 
individuals responsible for load rating the bridges to be PEs. 
ASCE believes that non-PE bridge inspectors and technicians may 
be used for routine inspection procedures and records, but the 
pre-inspection evaluation, the actual inspection, ratings and 
condition evaluation should be performed by registered 
professional engineers experienced in bridge design and 
inspection. The bridge engineer may have to make immediate 
decisions to close a lane, to close an entire bridge or to 
prohibit truck traffic on a bridge to protect the public 
safety.
    ASCE strongly supports quick action to enact the NHS Bridge 
Reconstruction and Inspection Act, which would authorize 
additional funds to repair, rehabilitate and replace 
structurally deficient bridges on the National Highway System. 
This is accomplished through improving the bridge inspection 
requirements, providing dedicated funding for structurally 
deficient NHS bridges, distributing funds based on public 
safety and need, and establishing a bridge reconstruction trust 
fund.
    A thorough review of current bridge inspection requirements 
seems appropriate. ASCE strongly supports a requirement that 
bridge inspections be performed by registered professional 
engineers who are certified bridge inspectors. The initiatives, 
compliance reviews of State bridge inspection programs and 
increased emphasis on steps to address structurally deficient 
bridges are vital to improving State bridge programs and must 
emphasize bridge safety, not bureaucracy.
    Additional funding to repair, rehabilitate and replace 
structurally deficient bridges on the NHS would be a good 
complement to the current FHWA bridge program, because of the 
emphasis on the NHS bridges. National Highway System bridges 
carry a large percentage, more than 70 percent of all traffic 
on bridges. Over the over 116,000 bridges on the National 
Highway System, 6,175 are structurally deficient, including 
nearly half, 22,830, which are part of the interState system.
    Senator Boxer. Mr. Herrmann, could you sum up? We are 
running out of time and I want to make sure everybody gets 
heard. So just give me your sum-up.
    Mr. Herrmann. OK. Improving the safety of the Nation's 
bridges is an important goal. But the rest of the Nation's 
infrastructure faces just as many needs. ASCE's 2005 Report 
Card for America's Infrastructure gave the Nation's 
infrastructure a cumulative grade of D. ASCE is now working on 
and will release its next report card in March 2009, with the 
expectation that continued under-investment and delayed 
maintenance over the past 3 years will result in grades that 
have not improved significantly, if at all.
    Successfully and efficiently addressing the Nation's 
infrastructure issues will require long-term, comprehensive, 
nationwide strategies including identifying potential financing 
methods and investment in requirements. For the safety and 
security of our families, we as a Nation can no longer afford 
to ignore this growing problem. Aging infrastructure represents 
a growing threat to public health, safety and welfare, as well 
as the economic well-being of our Nation.
    Thank you.
    [The prepared statement of Mr. Herrmann follows:]
    [GRAPHIC] [TIFF OMITTED] T8907.035
    
    [GRAPHIC] [TIFF OMITTED] T8907.036
    
    [GRAPHIC] [TIFF OMITTED] T8907.037
    
    [GRAPHIC] [TIFF OMITTED] T8907.038
    
    [GRAPHIC] [TIFF OMITTED] T8907.039
    
    [GRAPHIC] [TIFF OMITTED] T8907.040
    
    [GRAPHIC] [TIFF OMITTED] T8907.041
    
    [GRAPHIC] [TIFF OMITTED] T8907.042
    
    [GRAPHIC] [TIFF OMITTED] T8907.146
    
    [GRAPHIC] [TIFF OMITTED] T8907.147
    
    [GRAPHIC] [TIFF OMITTED] T8907.148
    
    [GRAPHIC] [TIFF OMITTED] T8907.149
    
    Senator Boxer. I think that sums it up. We appreciate it.
    Mr. Krieger, we are very happy to have you here, U.S. 
Public Interest Research Group.

  STATEMENT OF JOHN KRIEGER, STAFF ATTORNEY, FEDERAL TAX AND 
  BUDGET POLICY, UNITED STATES PUBLIC INTEREST RESEARCH GROUP

    Mr. Krieger. Thank you, Madam Chairperson and Senator 
Inhofe. I thank you for the opportunity to testify on this 
issue that is crucial to the safety and security of American 
families.
    I speak today on behalf of the U.S. Public Interest 
Research Group, a national federation of non-partisan, non-
profit State-based public interest advocates and the many other 
organizations that also support this legislation, including the 
Transportation for America Coalition, an alliance of national 
membership groups focused on building a modernized 
infrastructure and healthy communities where people can live, 
work and play.
    As the latest wave of dangerous storms crashing into our 
coasts has reminded us, we as a Country are only strong and 
safe when our national infrastructure is sound and in a State 
of good repair. For that reason, we firmly believe that a 
Federal highway dollar is best spent on preservation and 
maintenance rather than building new capacity. We urge the 
Committee to support this legislation and to focus Federal 
funding on our Nation's significant backlog of aging and 
crumbling infrastructure.
    The height of new bridge construction occurred from 1956 to 
1971, during the early phase of the interState highway system. 
Therefore, many of the bridges that Americans travel on every 
day are reaching a critical age at the same time. According to 
a needs assessment from the Department of Transportation, the 
existing bridge investment backlog on the National Highway 
System is over $65 billion.
    Last year, America saw the horror of the Minnesota I-35 
West Bridge collapse. One year later, it is important to 
understand the systematic causes of that tragedy in order to 
avoid future disasters. There is no organized lobby that 
pressures State officials for bridge repair. On the contrary, 
well-connected developers and road builders lobby aggressively 
on the State level for wider lanes, new branch roads and 
additional off ramps. Builders often prefer lucrative contracts 
to pour concrete and lay steel for new highways rather than the 
uncertainty of relatively complex and labor-intensive 
restoration and repair. Meanwhile, elected officials find it 
all too easy to defer preventive maintenance that is scarcely 
noticed and rarely celebrated by voters.
    Over the last two decades, State departments of 
transportation have received vastly increased flexibility to 
shift funds between Federal programs to fulfill their 
transportation plans. The Highway Bridge Program, as you know, 
is the primary source of funds for highway bridge replacement, 
reconstruction and capital maintenance. States, however, can 
flex or transfer 50 percent of their Federal bridge funds into 
non-bridge programs. During the last 5 years, as we have heard 
earlier, most States divert that money into new projects, 
diluting the intention of the Federal program. In fact, Federal 
highway data shows that 36 States transferred more money out of 
bridge repair accounts than into them over the span of the last 
5 years. Compounding the problem, Federal funds are doled out 
based on formulas that often reward deferred maintenance. 
States receive funding based on their outstanding costs for 
replacing deficient bridges, but there is little accountability 
to ensure that States use the money for this purpose. By 
deferring maintenance and allowing a bridge to deteriorate to 
the point of replacement, States can tap into more readily 
available capital funds, albeit it as a much greater total cost 
to the taxpayers.
    The legislation before us today would be a strong step in 
the right direction. The legislation requires that State 
departments of transportation address all bridges on the 
National Highway System that have a sufficient rating below 50 
on a scale of 1 to 100 before being eligible to transfer 
Federal funds into other programs. This common-sense solution 
ensures that States address those bridges that are in worse 
condition than the I-35 West bridge before diverting bridge 
funds into other projects.
    The legislation also infuses more accountability into the 
National Bridge repair and replacement program by ensuring that 
investments are based on priorities like safety and mobility 
and not on politics.
    Next session, this Committee will be called upon to debate 
and write much of the next surface transportation funding 
authorization. In order to revamp our transportation system for 
the needs of the 21st century, fix it first policies and 
accountability for spending must be prioritized. Unless we 
change the way that American finances bridge repair, we remain 
doomed to repeat mistakes of the past. The bridge collapse in 
Minnesota should serve as a wake-up call.
    We urge this Committee to embrace and approach the highway 
spending that prioritizes maintenance and repair of our 
existing roadways and bridges. Our Country can no longer afford 
the cost of inaction and misplaced priorities as our bridges 
continue to age and deteriorate. For that reason, we ask that 
you support the National Highway Bridge Reconstruction and 
Inspection Act.
    I thank you once again for this opportunity. Thank you.
    [The prepared statement of Mr. Krieger follows:]
    [GRAPHIC] [TIFF OMITTED] T8907.043
    
    [GRAPHIC] [TIFF OMITTED] T8907.044
    
    [GRAPHIC] [TIFF OMITTED] T8907.045
    
    [GRAPHIC] [TIFF OMITTED] T8907.046
    
    [GRAPHIC] [TIFF OMITTED] T8907.047
    
    [GRAPHIC] [TIFF OMITTED] T8907.048
    
    [GRAPHIC] [TIFF OMITTED] T8907.093
    
    [GRAPHIC] [TIFF OMITTED] T8907.094
    
    [GRAPHIC] [TIFF OMITTED] T8907.095
    
    [GRAPHIC] [TIFF OMITTED] T8907.096
    
    [GRAPHIC] [TIFF OMITTED] T8907.097
    
    [GRAPHIC] [TIFF OMITTED] T8907.098
    
    [GRAPHIC] [TIFF OMITTED] T8907.099
    
    [GRAPHIC] [TIFF OMITTED] T8907.100
    
    [GRAPHIC] [TIFF OMITTED] T8907.101
    
    [GRAPHIC] [TIFF OMITTED] T8907.102
    
    [GRAPHIC] [TIFF OMITTED] T8907.103
    
    [GRAPHIC] [TIFF OMITTED] T8907.104
    
    [GRAPHIC] [TIFF OMITTED] T8907.105
    
    [GRAPHIC] [TIFF OMITTED] T8907.106
    
    [GRAPHIC] [TIFF OMITTED] T8907.107
    
    [GRAPHIC] [TIFF OMITTED] T8907.108
    
    [GRAPHIC] [TIFF OMITTED] T8907.109
    
    [GRAPHIC] [TIFF OMITTED] T8907.110
    
    [GRAPHIC] [TIFF OMITTED] T8907.111
    
    [GRAPHIC] [TIFF OMITTED] T8907.112
    
    [GRAPHIC] [TIFF OMITTED] T8907.113
    
    [GRAPHIC] [TIFF OMITTED] T8907.114
    
    [GRAPHIC] [TIFF OMITTED] T8907.115
    
    [GRAPHIC] [TIFF OMITTED] T8907.116
    
    [GRAPHIC] [TIFF OMITTED] T8907.117
    
    [GRAPHIC] [TIFF OMITTED] T8907.118
    
    [GRAPHIC] [TIFF OMITTED] T8907.119
    
    [GRAPHIC] [TIFF OMITTED] T8907.120
    
    [GRAPHIC] [TIFF OMITTED] T8907.121
    
    [GRAPHIC] [TIFF OMITTED] T8907.122
    
    [GRAPHIC] [TIFF OMITTED] T8907.123
    
    [GRAPHIC] [TIFF OMITTED] T8907.150
    
    [GRAPHIC] [TIFF OMITTED] T8907.151
    
    Senator Boxer. Thank you, Mr. Krieger.
    As I have explained to my Ranking Member, I have given the 
gavel to Senator Klobuchar, because I need to go to a noon 
meeting. Mr. Ridley, know that I join in all the wonderful 
things that Jim Inhofe said about your career. I am just 
leaving because I have this urgent meeting, and I am turning 
this over to Senator Klobuchar. After you finish, she will do 
her 5 minutes and then go to Senator Inhofe, then I have told 
her, as long as she wants to keep you here, questioning you, 
she should feel free to do that. We will read it all in the 
record.
    Thank you all, and thank you, Senator Inhofe.
    Senator Klobuchar.
    [Presiding]. Mr. Ridley.

  STATEMENT OF GARY RIDLEY, DIRECTOR, OKLAHOMA DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Ridley. Madam Chair and distinguished members of the 
Committee, my name is Gary Ridley. I am the Director of the 
Oklahoma Department of Transportation, and as with all State 
DOT directors, a member of the American Association of State 
Highway and Transportation Officials, or AASHTO.
    On behalf of the State of Oklahoma and AASHTO, we want to 
thank you for the opportunity to be with you this morning to 
offer testimony related to the content of Senate Bill 3338 and 
House Resolution 3999 with regard to increasing the 
effectiveness of the Federal Bridge Program.
    In the current form, the proposed legislation seeks overall 
highway-bridge program improvement through increased levels of 
Federal involvement, and also focuses attention on several 
perceived deficiencies in the National Bridge Inspection 
program. We would submit that the deteriorating conditions of 
our Nation's transportation infrastructure is no secret. It is 
not the result of lack of Federal involvement, a mismanaged 
investment strategy or a failed bridge inspection program. In 
plain terms, it is a result of the failure to provide the 
necessary financial resources to properly maintain and expand 
the very system that helped make this Country what it is today.
    An increase in the bridge inspection frequency will only 
duplicate the documentation of known bridge deficiencies, just 
as the creation of a new 5 year plan will only reemphasize how 
woefully ill-prepared we are to face the Nation's future with a 
clear knowledge and understanding of the shortcomings of our 
past.
    In that context, we would offer the following observations 
concerning the bill. A risk-based prioritization system, 
subject to the approval of the Secretary, affords little 
opportunity to improve the Federal bridge program, but will 
certainly contribute to another layer of Federal bureaucracy. 
Bridge management systems used in each State are already 
designed to consider risk-based factors and are being enhanced 
to incorporate risk-based modeling. The prioritization of 
bridge rehabilitation and replacement must begin with bridge 
management and must carefully be vetted by State transportation 
professionals to ensure that a balanced approach to managing 
all transportation assets is being implemented.
    It is unlikely that the requirement for load rating all 
bridges on the Federal Aid system every 24 months will yield 
meaningful information. However, load ratings should be 
reevaluated when the conditions observed in the field have 
changed significantly from the as-built condition of the 
structure. Also, the posting of safe load-carrying capacities 
for each bridge indicates that load rating tonnage, posted 
tonnage, would be required for all bridges. Such methodology 
would diminish the effectiveness of posting only those bridges 
incapable of carrying legally loaded trucks.
    The development of a new 5 year performance plan for bridge 
inspection and bridge rehabilitation and replacements to be 
approved by the Secretary provides no tangible benefit. The 
Bridge Inspection Program is clearly described in the National 
Bridge Inspection Standards, and the opportunity for Federal 
input and oversight already exists through the review of the 
approved, mandated State-wide Transportation Improvement Plan, 
or STIP. It is safe to say that States already utilize the 
bridge condition information provided by their bridge 
management systems, along with a host of other considerations, 
to identify transportation system deficiencies in formulating 
and prioritizing the investment strategies presented in their 
STIP. A new performance plan provides no new enhanced 
information beyond that which exists today and does nothing to 
improve the inspection program or to expedite bridge program or 
project delivery.
    Undoubtedly, the National Bridge Inspection Program can be 
improved upon. However, the focus of any improvement should be 
with qualitative nature, rather than simply quantitative. We 
would offer the following observations in that support.
    When determining bridge inspection frequency, structural 
deficiency is not the true measure of structural integrity and 
should not be exclusively used as a trigger for annual 
inspection cycles. Bridges should be, and are already placed on 
a more frequent inspection cycle based on the condition of the 
main structural members and traffic volumes.
    The frequency of inspection of fracture-critical members 
should be based on a documented, in-depth assessment of 
condition of that member and the amount of truck traffic that 
is carried by the structure. Truck traffic is a driving force 
behind fracture-critical member fatigue cycles. Therefore, 
fracture-critical members with low average daily truck traffic 
may not need to be inspected at the same frequency as fracture-
critical members carrying large volumes of traffic.
    Ultimately, sound engineering judgment should be used for 
inspection frequency in determinations for both structural 
deficiency and fracture-critical bridges. These considerations 
and judgment are self-evident in the fact that States have 
implemented an inspection frequency of 12 months or less on 
almost 7,000 of the Nation's 25,000 structurally deficient 
Federal Highway Aid Bridges.
    With regard to possible changes to increase the 
effectiveness of Federal ridge program and bridge inspection 
procedures, we request your consideration of the following 
recommendations. The membership of AASHTO's Standing Committee 
on Highways, or SCOH, is representative of the best 
transportation engineers in the Country and therefore, the 
world. This standing committee, made up of transportation 
professionals, should be tasked with the evaluation of the 
bridge program and the National Bridge Inspection Standards in 
order to return improvement recommendations back to Congress 
for their consideration.
    The further consideration of S. 3338 and H.R. 3999 should 
be limited to the appropriation of $1 billion to be utilized 
exclusively for the construction contracts to rehabilitate or 
replace structurally deficient bridges on the National Highway 
System and mandate the obligation of these funds with 18 months 
of apportionment.
    In conclusion, we would reiterate that the further 
assessment, inspection, documentation and prioritization of 
deficient bridges will not make them better bridges. The only 
way to begin to reverse the current trends is to substantially 
increase the Federal investment in all facets of our national 
transportation system, both bridges and pavements. We would be 
happy to answer any questions.
    [The prepared statement of Mr. Ridley follows:]
    [GRAPHIC] [TIFF OMITTED] T8907.049
    
    [GRAPHIC] [TIFF OMITTED] T8907.050
    
    [GRAPHIC] [TIFF OMITTED] T8907.051
    
    [GRAPHIC] [TIFF OMITTED] T8907.052
    
    [GRAPHIC] [TIFF OMITTED] T8907.053
    
    [GRAPHIC] [TIFF OMITTED] T8907.054
    
    [GRAPHIC] [TIFF OMITTED] T8907.055
    
    [GRAPHIC] [TIFF OMITTED] T8907.056
    
    [GRAPHIC] [TIFF OMITTED] T8907.057
    
    [GRAPHIC] [TIFF OMITTED] T8907.058
    
    [GRAPHIC] [TIFF OMITTED] T8907.158
    
    [GRAPHIC] [TIFF OMITTED] T8907.159
    
    [GRAPHIC] [TIFF OMITTED] T8907.160
    
    [GRAPHIC] [TIFF OMITTED] T8907.161
    
    Senator Klobuchar. Thank you very much, Mr. Ridley, and 
thank you to all of our panelists.
    I was noticing, Mr. Herrmann, that in your testimony, you 
talked about how over $12 billion should be spent annually on 
bridge repair, is that right?
    Mr. Herrmann. That goes back to the Report Card in 2005. It 
was $12.4 billion. I think it was FHWA's statistics.
    Senator Klobuchar. I thought it was an interesting figure, 
because there are some estimates that that is how much we are 
spending a month in Iraq to build, among other things, bridges 
in Iraq. So you are saying that $12 billion a year, and then we 
are now spending only around $4 billion a year on bridge 
repair, is that right?
    Mr. Herrmann. I think AASHTO came up with a number from the 
Federal Government, $5 billion, and I think from States and 
other sources there is another $5 billion. So it is about $2 
billion short.
    Senator Klobuchar. OK. And you know what we are trying to 
do is, one, I agree with Mr. Ridley, we are trying to inject 
more funding into the system. We have tried to do that in 
several stimulus packages and other things. But the other thing 
we are trying to do is make sure the money that we have is 
spent in the right way. One of the things that Congressman 
Oberstar, because he has limited time, wasn't able to say that 
he has looked at this, and in Minnesota, in the 5-years leading 
up to our bridge collapse, only 51 percent of the bridge repair 
money was spent in that way. It was spent on other things. So 
that is why he and I are both so focused on trying to put 
safety standards in place and make sure that the money is spent 
in the right way.
    So could you tell me what the consequence, the on the 
ground consequence that you think there is of not spending the 
money we have designated, although it is not enough, in the 
right way? Then also not having enough money, period, for our 
own infrastructure?
    Mr. Herrmann. Obviously the statistic came out that our 
average bridge is 43 years old. About the time that these were 
designed, their design life was about 50 years.
    Now, bridges can be made to last longer, but they need 
maintenance, and they do need rehabilitation. If we don't have 
sufficient funding, we can't do that, and the rate of 
structurally deficient bridges will increase. As I stated 
earlier, if we take a look at the average over the past couple 
of years, the rate of decreasing that deficient bridge number 
is actually decreasing. So it is going to take longer to get 
rid of deficient bridges at the present rate.
    Senator Klobuchar. And the bill that we have here in the 
Senate that is similar to Congressman Oberstar's bill makes its 
allocation based on a formula that takes into account public 
safety. Do you think that is a key criteria for determining the 
funding?
    Mr. Herrmann. ASCE's canon of ethics puts public safety, 
health and welfare above everything for an engineer. So public 
safety is an excellent way to regard removal of deficient 
bridges.
    Senator Klobuchar. Thank you.
    Mr. Krieger, you were talking, which was kind of 
interesting, about why you think this is going on at the State 
levels. I tried to figure out why, in the past 5 years, as 
Congressman Oberstar had pointed out, in our State, 51 percent 
of the bridge money went to that maintenance. We had some State 
issues as well with a lack of funding. You believe, I wondered 
if you could expand on this, that you have issues of, there is 
not really a bridge repair lobby, that people aren't focused on 
that, it is not very glamorous, it is not very sexy and it is 
not as interesting as maybe building new projects. Do you want 
to expand on that?
    Mr. Krieger. Yes, thank you.
    We have been engaged over the last, for quite some time on 
the State level, trying to push, within State DOTs and State 
elected officials to do the right thing and to look at 
maintenance and repair. What happens is, in a lot of cases, 
there is pressure that comes from the outside and from the 
inside to do the thing that leads to the big ribbon-cutting. 
Those that push for the maintenance and repair and point to 
some of the things that their constituencies see, which are 
bridges in really bad shape, are kind of deemed as Chicken 
Littles.
    So there is definitely this sense of what is more popular 
among the voters and also this sense of, if you are an elected 
official or an appointee, in your time in office doing the 
thing that gets you the most political capital, which is not 
necessarily maintenance and repair.
    Then on top of that, in the situation of the flexing funds 
back and forth, it is logistically and politically difficult to 
do some of these maintenance and repair projects when it is 
easier to do some of the other new projects that, as I said 
before, are more politically popular.
    Senator Klobuchar. OK. We will go back to that for Senator 
Inhofe. I do think this is a combination of what you and Mr. 
Herrmann have talked about, with the lack of focus on this 
bridge repair, which is why we are doing this bill, but also 
what Mr. Ridley is referring to, which is the lack of funding, 
period. So thank you.
    Senator Inhofe?
    Senator Inhofe. Thank you, Madam Chairman.
    First of all, let me repeat, since it has been a long 
meeting, we may have forgotten how serious the problem is in 
Oklahoma. We are actually third in the number of bridges, only 
behind Texas and California. A lot of people don't realize 
that. The State of ill repair is about the worst in the Nation.
    Second, I don't like to have, in these discussions, 
bringing in political things, talking about how much you spend 
in Iraq or the war on terror and all that. We have a problem. I 
am ranked usually as the most conservative member of the U.S. 
Senate. And yet I am a big spender in some areas. One is 
national defense, but the other clearly is infrastructure. I 
would like to remind, I know that Mr. Ridley knows this, that 
when I was the author, at that time the Republicans were 
majority, I authored the 2005 Transportation Reauthorization 
Bill and characterized it as the largest non-military 
authorization bill in this Nation's history. I think it was.
    But I also said it was inadequate. It wasn't enough. And it 
just barely maintained what we have today, and it didn't take 
care of this crisis that is out there that everybody knows is 
there. That is why this should not be a partisan discussion. We 
need to spend more money on infrastructure, it is a crisis, we 
recognize that.
    Mr. Ridley, you and I have talked several times in the last 
few days. Could you recount for my colleagues and for the 
record what you have done in Oklahoma since last Friday to 
manage this highway finance Trust Fund crisis?
    Mr. Ridley. On Monday, Senator, we had our Transportation 
Commission. And we had a little over $80 million worth of 
projects that we had open bids just 2 weeks before that was 
going to be taken to the Commission for approval.
    One of those, quite frankly, was a $40 million project on a 
half a billion dollar bridge that we are replacing in Oklahoma 
City that is structurally deficient, that has 250 fracture-
critical members on it. It is one that certainly needs to be 
replaced. But we had to ask the Commission to defer that 
letting until the crisis here in the Trust Fund is solved. We 
also suspended all right-of-way acquisition for any of our 
projects. And depending on what takes place, I informed the 
Commission, depending on what takes place with the Trust Fund 
over the next few days, we may suspend work on construction 
projects, have to, because of the cash-flow of the 
reimbursement of the billing from the Federal Trust Fund.
    Senator Inhofe. You have done a good job of it. I would 
assume that your counterparts in other States, you have had 
communication with them. The same thing is happening there, in 
most States.
    Mr. Ridley. That is correct. All States are different in 
their approach. We rely, 85 percent of our construction program 
currently is Federal funds. Consequently, any disruption in 
making payments by the Trust Fund will have a dramatic effect 
on our cash-flow.
    Senator Inhofe. We have talked also, Mr. Ridley, about the 
upcoming 2009 reauthorization bill. I have mentioned to you 
that some of this concern that is out there, that money is not 
going all to surface transportation, in fact, I have seen this 
in the last 22 years that I have been on both the House 
Committee and then the Senate Committee, that it goes to other 
areas. One of our meetings preparing, that we have had here 
with Senator Boxer, preparing for the 2009 reauthorization 
bill, we have talked about funding mechanisms and trying to 
isolate these things to have each one pay for its own. We are 
trying to address this. But it is a crisis that is out there.
    Now, Mr. Krieger, I am going to ask you, but I want to ask 
Mr. Ridley first, it is my understanding, and I am not sure 
about Oklahoma, but in many States, money is indeed transferred 
out of the bridge account. One reason for that, as I said in my 
opening statement, when Mr. Oberstar was here, is that there is 
so much red tape in there that they can actually use that money 
to repair and to rebuild bridges in another account that 
doesn't have the same red tape and maybe get more for the 
dollars. Do you think either Oklahoma or some other States are 
using this rationale?
    Mr. Ridley. Absolutely, Senator. The problem with using the 
money in the bridge account, because of the guidance, if you 
will, by the Federal Government, makes it so extremely 
difficult to use those moneys for bridge rehabilitation at 
times.
    Let me give you an example, Senator, that you are very 
familiar with. Oklahoma, not unlike Minnesota, had a bridge 
tragedy itself in 2002. Our bridge was knocked down, not 
collapsed. We started immediately to put a plan in place to 
rebuild that bridge. Federal Highways told us that we could not 
use bridge funds to replace that bridge, because the last 
inspection of it had it rated as an 80. And not until we had 
some calls from your office and some others was the decision 
made that yes, we could. We were going to have to remove money 
out of our bridge program into the NHS in order to be able to 
rebuild the bridge back, rather than just use the money out of 
the bridge program, which certainly seems somewhat foolish with 
us.
    Senator Inhofe. And I remember being there with Secretary 
Peters the day after this, and with you. And she recognized 
that. That is one of the reasons that we did it the way we did 
it. I applaud you for getting that done.
    By the way, that job, I am sure you have the numbers on 
this, but it was done like in two-thirds of the time that they 
thought it was going to be done. It was so similar to the 
tragedy that took place between Port Isabel, Texas, and South 
Padre Island, just a few weeks before, when it was rammed by a 
barge. So you really performed well.
    I think that is a good way of putting it.
    Mr. Krieger--I know, I am going over.
    Senator Klobuchar. That is OK, go ahead.
    Senator Inhofe. It would be very difficult, I think, for 
you to try to analyze how much of the 36 that you use actually 
did come back for bridge use that didn't come back to that 
account. And you might have a comment about that, or maybe 
there is a methodology that can be used. It would be 
interesting for all of us up here to know how much of this 
diversion actually did go back into bridges. Do you have any 
thoughts on that?
    Mr. Krieger. I don't have a specific answer to that. What I 
can speak to is that the ISTEA bill built in quite a bit of 
flexibility for States. This is where the flexing comes from in 
the first place. And that flexibility, when not matched 
specifically with accountability, as you know, any time you 
have flexibility and you don't match it with a level of 
accountability, and I think we have heard that repeatedly 
during this hearing today, has led to the situation that we are 
at now.
    That is why we specifically support the legislation that is 
before us today, is because what it does, it says, there is a 
national crisis, a national priority, let's get these bridges, 
regardless of State lines, let's get these bridges inspected, 
inspected correctly, categorized, prioritized and then fixed. 
We have engaged the public in this discussion and have tried to 
get the public really as engaged as possible. They know nothing 
of these kind of rescissions and complex formulas and things 
like that. But what they do know is a crisis, and they do know 
national priorities.
    Senator Inhofe. You answered the question. But what you 
might do is kind of look at that and see if there is a way to 
determine, because I think it would be worthwhile knowing. I 
have worked at the local level and at the State level. 
Unfortunately, here in Washington I have to say that there is 
this mentality that if it isn't done in Washington and directed 
from Washington, it is not going to be right. This bothers me. 
I have always said, even back in the days when I was mayor, the 
closer you are to the people, the better ideas you have on 
resolving these problems.
    Mr. Ridley, we talked about the bridges and the dangers 
there. We all know that, we know that certainly from our 
Oklahoma experiences. In fact, we have, in Oklahoma City one of 
the concerns I have on this delay is what is going to happen on 
that cross-town. We have chunks of rock that are falling down 
and very likely could kill somebody. So there is a lot of 
danger there.
    But do you make a conscious evaluation of the relative 
dangers of other things, too? There are other dangers in the 
Highway Bill and the highway construction. Do you have any 
comments on that, on what you would do to try to address the 
thing that all of us feel is the most significant, and that is 
dangers to health or human life?
    Mr. Ridley. Certainly, Senator, a DOT director or a State 
has to balance the program. And let me give you some examples. 
The tragedy that took place in Minnesota, our hearts really 
went out for them because of what took place in 2002 in 
Oklahoma. But we need to realize, last year, those 13 people 
that were killed with that collapse was terrible, a terrible 
tragedy. At the same time, last year over 40,000 people were 
killed on our highways. In my State, on the roads that I am 
responsible for, last year over 500 people were killed on the 
roads that I am responsible for, none of them in a bridge 
collapse.
    We have a real problem, not only just in Oklahoma, but in 
all States. Twenty-five percent of our roads in Oklahoma are 
critical or inadequate. That means they don't have shoulders on 
them, poor horizontal and vertical sight distance, bad 
geometrics, no recovery area for an errant vehicle, so that 
they can bring a car under control or bring it back up on the 
highway.
    In 25 percent of our roads, those that are critical or 
inadequate, over 50 percent of all accidents occur. So we know 
that there are problems that we can correct. But without the 
funds, we cannot. So you balance the problems with our bridges 
along with the problems with our roadways to develop a plan. 
Federal Government provides us, about 16, 18 percent of the 
Federal program is tied to bridges under the BR program. We 
spend about 26, 27 percent on bridges. So it is not that we are 
not spending money on bridges. And other States do as well.
    But you have to marry it with everything else. A lot of 
things that happen with the fatality accidents across the 
Country are certainly driver error. But I don't think that a 16 
year old girl driving on a two lane highway at night in a 
rainstorm, drops her wheel off the edge line, where there is no 
shoulder, no recovery area, poor horizontal and vertical sight 
distance, that the penalty for that mistake ought to be 
personal injury or death. But that is certainly what can 
happen. We see it every day on our system, across the Country.
    So you can't just focus on bridges, oblivious to everything 
else. You have to balance it with all aspects of transportation 
and certainly safety is a prime consideration of our State. And 
I know it is with the other 49.
    Senator Inhofe. I appreciate that very much.
    Just one last short question. The problem that we are going 
to have right now if we don't get this thing through, we have 
to have, and I think the Chairman and I both agree on this, we 
have to have this fixed, we have come up with a fix that I 
think is good and it is going to have to be done.
    If it isn't, and you look at all the problems, I don't know 
whether you have had a chance to look and see in terms of jobs 
how many penalties, for example. You have contracts, you have 
let contracts. There are penalties involved if we don't live up 
to our part of this. It is going to cost the State of Oklahoma 
and the Federal Government penalties. There are going to be 
delays, there could be lawsuits. I know you have thought about 
all of these unintended consequences. And right-of-way 
acquisition, all these things. It is chaotic. We could go on 
and on.
    I just hope that this hearing will reflect that this isn't 
just in the State of Oklahoma, but by not doing this fix now 
instead of waiting until next year, the consequences are dire, 
not only in money, but in lives, Madam Chairman.
    I applaud you, Director Ridley, for the great job that you 
have done. We are truly blessed in the State of Oklahoma to 
have your service.
    Thank you, Madam Chairman.
    Senator Klobuchar. Thank you very much, Senator Inhofe. I 
also thank you, Mr. Ridley, for your work that you have done. I 
was just in Oklahoma at Fort Sill, bidding farewell to some of 
our troops. It was 109 degrees as I called Senator Inhofe to 
say hello and how much I enjoyed the weather when I was there.
    [Laughter.]
    Senator Klobuchar. I can imagine the heat has its own 
impact, just as the cold does in Minnesota, on the roads. And 
obviously, I support and we badly, on our side of the aisle, 
want to get that fix done to the transit fund. We have tried 
now three times and have been blocked. We hope, with the 
Administration helping us this time, that we will be 
successful.
    But I did want to get at this issue of priorities with 
funding in general. This isn't just about bridges, as we 
pointed out. This is about our infrastructure funding. I know, 
Senator Inhofe, you mentioned it was partisan. But I do think 
in the end we only have so much money and we have to decide how 
we are going to divide it up. I was thinking, my daughter had a 
slumber party with six girls and two extra came. They had 
ordered this pizza and they had it all divided up--this is a 
mom's way of looking at the world--and the extra guests came. I 
saw them all trying to figure out how they were going to divide 
up the extra pizza.
    That is what this is all about. It is about limited 
resources and how we are going to spend them. That is why I 
have an issue with some of the priorities that we have had in 
the past when we are spending $12 billion a month in Iraq and 
bridges are falling down in the middle of Minnesota.
    So I appreciate that you understand that this 
infrastructure should be a key priority.
    Senator Inhofe. Madam Chairman, I might just say that we 
have the Defense Authorization bill on the floor. I have an 
amendment, so if you will excuse me. I will leave their fate in 
your hands.
    Senator Klobuchar. Very good. I think I will just have a 
few more minutes here.
    Back to the GAO report, Mr. Ridley, you correctly State 
that this is about funding, first and foremost, that is what it 
is about. But we have this issue of bridge funding, and we are 
dealing, we know we are not going to get everything we want in 
funding here, so we are figuring out how, with this one 
program, can we better fund it. We have in the GAO report some 
suggestions which clearly indicate that the current system 
provides States with an incentive to not replace or repair 
their bridges, just because of the way that it works. We heard 
from the head of the GAO.
    Do you think that is a problem, the way the current system 
works?
    Mr. Ridley. I think maybe evidence to the contrary, Madam 
Chair. In recent years, out of the Federal Trust Fund, a little 
over $5 billion was set aside for bridge replacement, bridge 
rehab. Yet States have spent over $10 billion, as Mr. Herrmann 
had said. It doesn't look to me like States are robbing from 
the bridge fund to do other things, it looks like they are 
using the ability to be able to move funds in order to 
adequately try and handle the bridge problem.
    Again, I can refer to Oklahoma easier than I can others, in 
the last 30 months, we have repaired or replaced 242 bridges 
for a cost over $900 million. So we are trying to tackle our 
bridge program. As I mentioned earlier, some 27 percent of all 
of our funds in our 8 year program are tied to bridge 
replacement and bridge repair, major rehabilitation.
    I would assume that other States would do the same thing. 
They have a responsibility to the people that they work for to 
do the same thing.
    Senator Klobuchar. Obviously I am struggling with what 
happened in our State, where we know we have this one fact and 
maybe some other money we know was also used for bridge repair, 
that only 50 percent was really used for bridge repair. We also 
know that there was some knowledge that there were some 
problems with the bridge. Obviously no one wanted this to 
occur, it wasn't intentional.
    But we are just trying to figure out, Congressman Oberstar 
and I, how we could best target those funds. What we are 
concerned about is that some of these funds have been going to 
less high priority projects. Secretary Peters and the 
Administration believes that the Federal Government in fact 
needs to develop better outcome measures for how this money is 
spent. Could you comment on that?
    Mr. Ridley. As I stated, I think that we appreciate the 
look-see at our bridge program nationally and how we do the 
inspection. Again, Madam Chair, I think that if you task, if 
this Committee or Congress or the Senate would task the 
professionals that are in all States, the State chief bridge 
engineers which are on a committee, so there is 50 of them, 
some of the smartest minds that I have ever been around, if you 
would task them to look at the bridge inspection standards, see 
if there are things that could be done differently and make a 
better bridge program, and have them report back to you 
shortly, I think they would.
    This is our bridge management system that we use in 
Oklahoma. About all States have a bridge management system that 
uses a lot of risk factors in the modeling to ensure that 
everything is considered when you are making selections of 
bridge projects, either rehabilitation or replacement. So I 
think there are some things out there that maybe are not 
universally known. But again, I would ask you to use these 
professionals. Again, they are some of the best minds I know. 
Have them report back to you. I am sure there are some things 
that could be changed for major improvement. I truly believe 
that.
    Senator Klobuchar. Mr. Krieger's point, and I am sure you 
will most likely say from your experience with Oklahoma, this 
hasn't happened, but do you think it is possible in another 
State, I won't even name one, that there could be some 
incentive to want to put money into more glamorous projects 
instead of this ongoing work of maintenance and that that could 
lead to some of these problems about not putting money into 
maintenance?
    Mr. Ridley. Again, that is an idea that I don't know I 
could comment on. I know in our State, asset preservation is a 
big part of what we do. You have to look at preserving your 
existing assets before you add any new assets. Certainly other 
States are pressured with other things as far as congestion is 
concerned that they may have to deal with in adding additional 
assets. I can't comment on that.
    But we focus very heavily on asset preservation, which may 
mean replacement of bridges, it may mean replacement of 
pavement or adding shoulders, but improving the asset that we 
currently have.
    Senator Klobuchar. Thank you.
    Just a few last questions. Mr. Krieger, do you think the 
provision that we have in our bill aimed at prohibiting any 
congressional or Administration earmarks that could divert the 
funding from our most pressing problems, based on public 
safety, would be adequate to address some of the problems we 
have been facing here as we look at where these funds have been 
going?
    Mr. Krieger. Yes, I certainly think that it is an important 
provision. As I said in the testimony, and again as we have 
heard from other witnesses today, there is, in the case of this 
being a large, an important national priority that you have to, 
to the degree that is possible, extract the politics as much as 
possible and just attack the problem. I think that is what your 
legislation does extremely well.
    The one thing, as far as this flexing question goes, the 
one thing that we do know as a fact is that close to $5 billion 
over 5 years has been flexed out of the Highway Bridge Program, 
the national program, and put into other places. We don't know 
exactly in every case where that has gone. But it has happened, 
and it is very much the sense of, a homeowner, and I think we 
heard this analogy earlier from the Chairperson, that homeowner 
with a cracked foundation, instead of it deferring, it is 
almost like, when you are taking this $5 billion out and 
putting it on other places, it is like building a big pool in 
your back yard or an extension in the house when you have a 
cracked foundation. We have to really address that foundation.
    Senator Klobuchar. All right. Thank you very much.
    Thank you, Mr. Herrmann, Mr. Krieger, everyone, for being 
here this long time. I will end, Mr. Ridley, with a good 
Oklahoma story for you. When I went to that deployment ceremony 
in what was 109 degrees, it was so hot that 37 people fainted. 
They are all fine, they got treatment. I went home from 
Oklahoma that day with our National Guard, and I called a 
friend and I was telling her the story. My 13 year old daughter 
heard me talking and she ran to the top of the stairs, the 
ceremony was an hour long, she said, ``Daddy, Mommy talked so 
long that 37 people fainted.''
    [Laughter.]
    Senator Klobuchar. I would point out, I only spoke 4 
minutes. So with that story, I will end our hearing so everyone 
can go to lunch.
    Thank you very much. We appreciate it.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]

           Statement of Hon. Thomas R. Carper, U.S. Senator 
                       from the State of Delaware
    The last two times we have reauthorized the Nation's surface 
transportation law, our priority has been giving states as much 
flexibility as possible in the use of that money. As a former Governor, 
I support letting states determine their transportation priorities and 
where money is most needed.
    However, we can go too far. We still have to answer to the Federal 
taxpayer with regard to how their money is being spent. In terms of the 
Bridge Program, this means making sure the taxpayer dollars are going 
to bridges most in need of repair. It means ensuring that progress is 
made in the maintenance of bridges to keep American drivers safe.
    Currently, states with the most deficient bridges get the most 
money, which makes sense. But when we allow states to flex that money 
into other programs while neglecting structurally deficient bridges 
then it starts to seem like our formula rewards bad behavior. I am 
proud that Delaware has one of the best Bridge programs in the country 
and we have very few structurally deficient bridges. However, we too 
face our challenges.
    The Corps of Engineers maintains four bridges over the C&D Canal 
that cuts through the middle of my state. Two of those bridges--the St. 
Georges and the Summit Bridge--currently have weight restrictions on 
them while repair work is being done. We need to make sure funding is 
available to do this kind of important work. But we need to make sure 
progress is being made to ensure bridges are being repaired to keep 
American drivers safe.
    As we consider reauthorization of this program, it may be time to 
require that states meet performance standards to demonstrate progress 
in repairing bridges that need it.

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland
    Thank you, Madam Chair. Everyday 4 billion vehicles cross bridges 
in the United States. The American Society of Civil Engineers, in its 
2005 Report Card for America's Infrastructure, found that 27.1 percent, 
or more than 160,000 of the nation's 600,000 bridges, were structurally 
deficient or functionally obsolete.
    In Maryland 29 percent of my state's bridges were rated as 
structurally deficient or functionally obsolete. The Maryland State 
Highway Administration has cited an unfunded preservation need of $221 
million just for bridge replacement and rehabilitation.
    Madame Chair, we have a lot of bridges in America and they need a 
lot of work. I join my colleagues in supporting a bold investment plan 
to save our nation's bridges. I also think we need to begin to utilize 
promising technologies that improve the thoroughness of bridge 
inspections.
    Just last month in Maryland, a tragic accident on the eastbound 
span of the Chesapeake Bay Bridge sent an 18-wheel tractor trailer over 
a jersey barrier and into the Chesapeake Bay, killing the driver. The 
original span of the Bay Bridge opened in 1952. The accident last month 
marks the first time that a vehicle has jumped the bridge's jersey 
rail. In many respects that is an enviable safety record, but it is 
clearly not good enough.
    Maryland Governor O'Malley ordered State transportation officials 
to immediately investigate the causes of the crash and to re-inspect 
the bridge. State inspectors found corroded steel in the U-bolts, which 
fasten the barriers to the deck of the bridge. According to the chief 
engineer of the Maryland Transportation Authority, the U-bolt corrosion 
had been overlooked in the past because routine annual inspections are 
visual.
    This corrosion was identified only because ultrasound and radar 
were used to penetrate into the structure of the bridge. This discovery 
demonstrates the advantage of newer technologies for bridge inspection. 
We know Maryland is not the only State that has experienced bridge 
corrosion, or tragedy related to deteriorating bridges, in recent 
years.
    The memories of the collapse of a bridge on InterState 35 West in 
Minneapolis just over a year ago, which killed 13, are still with us. 
In addition to the public safety concern, this is an economic and 
American competitiveness issue.
    The U.S. Chamber of Commerce points out that without significant 
repairs and new construction, our aging roads, bridges, and transit 
cannot begin to handle the growing transportation needs that commuters, 
emergency responders, truckers and delivery drivers, and law 
enforcement require on a daily basis. The economy depends on the 
soundness of our bridges as well.
    We are seeing that impact right now. The lane closures on the 
Chesapeake Bay Bridge are having a major impact on the economic 
vitality of my state's economy, especially on the Eastern Shore. We 
need a bold investment plan for our nation's bridges and other 
infrastructure.
    We also need to utilize the latest in screening and inspection 
technologie--such as radar, ultrasound and other electronic sensors--to 
assess which bridges need attention first. These technologies can save 
money and save lives. Washington needs to once again take the 
development of our national infrastructure as a serious national issue, 
for our security, our economy, and to ensure American competitiveness. 
This hearing and the legislation we are considering start us down that 
neglected path.
    Thank you.
    
    [GRAPHIC] [TIFF OMITTED] 
    
                                 [all]
                                 
</pre></body></html>
